<html>
<title> - THE HOMELAND SECURITY MISSIONS OF THE POST-9/11 COAST GUARD</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                     THE HOMELAND SECURITY MISSIONS
                      OF THE POST-9/11 COAST GUARD

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2005

                               __________

                           Serial No. 109-18

                               __________

       Printed for the use of the Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
23-744                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                     Committee on Homeland Security

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity.     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5
The Honorable Donna Christensen, a Representative in Congress 
  From the U.S. Virgin Islands...................................    33
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    28
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    25
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    31
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    26
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of Texas........................................    29
The Honorable Don Young, a Representative in Congress From the 
  State of Alaska
  Oral Statement.................................................     4
  Prepared Statement.............................................     4

                                WITNESS

Admiral Thomas Collins, Commandant, United States Coast Guard, 
  Department of Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                APPENDIX

Questions Submitted for the Record...............................    45
Rear Adm. Patrick M. Stillman, USCG, Oversight ad Management of 
  the U.S. Coast Guard's, Integrated Deepwater System............    46


      THE HOMELAND SECURITY MISSIONS OF THE POST-9/11 COAST GUARD

                              ----------                              


                        Wednesday, June 8, 2005

                          House of Representatives,
                 Subcommittee on Economic Security,
      Infrastructure Protection, and Cybersecurity,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Dan Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Linder, Rogers, Pearce, 
Cox (Ex Officio), Sanchez, Dicks, DeFazio, Pascrell, Langevin, 
and Thompson (Ex Officio).
    Also Present: Representative Christensen.
    Mr. Lungren. The Committee on Homeland Security 
Subcommittee on Economic Security, Infrastructure Protection, 
and Cybersecurity will come to order.
    The subcommittee today is meeting to hear testimony on the 
post-9/11 security missions of the United States Coast Guard. 
Today we have the pleasure for hearing from Admiral Collins, 
the Commandant of the United States Coast Guard, as we explore 
the Homeland Security missions of the post-9/11 Coast Guard. I 
want to start by thanking the commandant for his testimony and 
appearance before us today, which I understand is the first 
before the Homeland Security Committee.
    I expect that we will be working together on many issues in 
the years ahead as the committee vigorously exercised 
jurisdiction over border and port security activities in which 
the Coast Guard plays a fundamental and critical role.
    Our hearing today will review how the implementation of the 
Coast Guard's integrated Deepwater system is considered to 
enhance our Nation's port judge minority capabilities. We will 
also exam how this long-term complex and costly project, which 
was begun before the terrorist attacks on the USS Cole and as 
of 9/11, has been revised by the Coast Guard to appropriately 
account for such events and expanded Homeland Security missions 
in this unique agency.
    As the lead Federal agency for maritime security, the Coast 
Guard has the awesome task of protecting our waterways and 
securing our Nation's ports. For over 200 years the Coast Guard 
has patrolled and protected our coastlines, which total over 
the 95,000 miles. The Coast Guard also plays a key role in 
pushing our borders out to prevent terrorists and terrorist 
weapons from arriving at our shores. The committee will be 
particularly interested in the details as to how the Coast 
Guard manages both these blue and brown-water missions.
    The Coast Guard implements its acquisition strategy--or as 
the Coast Guard implements its acquisition strategy for the 
Deepwater program, this committee will pay close attention to 
how well these acquisitions enhance the maritime and port 
security capabilities of the Coast Guard and support the 
overall mission of the Department of Homeland Security.
    It is equally important that the Coast Guard's acquisition 
strategy take into account the availability and capabilities of 
the other DHS, Federal, State and local air and marine assets 
operating in the port and coastal security environment, as well 
as the need for greater interoperability and coordination 
between those assets and those of the Coast Guard. I am also 
interested in the flow of information.
    How does the Coast Guard receive, analyze and act on 
intelligence? How does the Coast Guard work with State and 
local law enforcement in the maritime sector who are both users 
and major collectors of valuable information?
    I look forward to the insights that Admiral Collins will 
provide on these topics today.

     Prepared Opening Statement of the Honorable Daniel E. Lungren

    Today, the Subcommittee will hear from Admiral Collins, the 
Commandant of the United States Coast Guard, as we explore the homeland 
security missions of the post-9/11 Coast Guard. I want to start by 
thanking the Commandant for his testimony and appearance before us 
today, which I understand is your first before the Homeland Security 
Committee. I expect that we will be working together on many issues in 
the years ahead, as the Committee vigorously exercises its jurisdiction 
over border and port security--activities in which the Coast Guard 
plays a fundamental and critical role.
    Our hearing today will review how the implementation of the Coast 
Guard's Integrated Deepwater System can serve to enhance our Nation's 
port and maritime security capabilities. We also will examine how this 
long-term, complex, and costly project--which was begun before the 
terrorist attacks on the USS Cole and of 9/11--has been revised by the 
Coast Guard to appropriately account for such events, and the new and 
expanded homeland security missions of this unique agency.
    As the lead Federal agency for maritime security, the Coast Guard 
has the awesome task of protecting our waterways and securing our 
Nation's ports. For over 200 years, the Coast Guard has patrolled and 
protected our coastlines, which total over 95,000 miles. The Coast 
Guard also plays a key role in pushing our borders out to prevent 
terrorists and terrorist weapons from arriving at U.S. shores. The 
Committee will be particularly interested in the details as to how the 
Coast Guard manages both these blue--and brown-water missions.
    As the Coast Guard implements its acquisition strategy for the 
Deepwater program, this Committee will pay close attention to how well 
these acquisitions enhance the maritime and port security capabilities 
of the Coast Guard, and support the overall mission of the Department 
of Homeland Security.
    It also is critically important that the Coast Guard's acquisition 
strategy take into account the availability and capabilities of other 
DHS, Federal, state, and local air and marine assets operating in the 
port and coastal security environment, as well as the need for greater 
interoperability and coordination between these assets and those of the 
Coast Guard.
    I am also very interested in the flow of information. How does the 
Coast Guard receive, analyze, and act on intelligence? How does the 
Coast Guard work with state and local law enforcement in the maritime 
sector, who are both users and major collectors of valuable 
information?
    I look forward to the insight that Admiral Collins will provide on 
these topics today.
    I will now recognize the Ranking Member for any opening statement 
she may wish to make at this time.

    I would now recognize the ranking member from California 
for any opening statement she may wish to make at this time.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
Admiral, for being before us. I have to tell you that after 
having been on this committee and the Select Committee--really, 
since we set this up--I have been very critical of the 
Department of Homeland Security and many of the measures that 
haven't been taken, that haven't been done and implemented with 
respect to the security of America and Americans. But I have to 
say that one of the areas where I am pretty happy is all the 
work that the Coast Guard has done.
    Admiral Collins. Thank you.
    Ms. Sanchez. So I want to commend you really for much of 
the work. There is a lot more to be done. I want to let you 
know what pieces I would like to hear from you today. But every 
time that I go to the Port of L.A. or the Port of Long Beach or 
the San Francisco ports, I am just amazed at how thoughtful the 
Coast Guard is with respect to what has to be done and what it 
has been able to do.
    I think its incredibly important that we protect the ports. 
As you know, 95 percent of everything of the trade that moves 
from nonNorth America comes through our port system. I think 
more than anything, the Coast Guard understands what an attack 
would look like and the result of loss of life, and, more 
importantly, as we saw on the shutdown we had a couple of years 
ago in the Long Beach, Los Angeles area, the economic loss that 
this country would suffer. So I commend you for many of the 
things that you have done.
    There are some items that I think are critical items that 
still need to be completed, and I hope that you will discuss 
them with us today. A national maritime security strategy, the 
long--and short-range vessel tracking system, a comprehensive 
maritime intelligence plan and the response plan for a maritime 
security incident.
    I understand that the Homeland Security Presidential 
Directive 13 is supposed to address some of these requirements. 
So I would like to hear from you when these items will be 
completed, especially with respect to the vessel tracking 
requirement.
    I am also concerned about the Deepwater program. Many of us 
have advocated acceleration of Deepwater. We are concerned with 
the two GAO reports issued within the last year that state the 
management challenges--because this really is a big job--
associated with that program.
    Most of all, we want the men and women of the Coast Guard 
to have the best equipment available to do their jobs, but we 
also have to insure that Deepwater is being properly managed so 
that those resources can reach the field in a timely and cost 
efficient manner. I would love to get some assurances to you as 
to how that all is moving along.
    Again, I welcome you and thank you for being before us 
today.
    Mr. Lungren. I thank the gentlelady. Before I recognize the 
chairman of the full committee and the ranking member of the 
full committee, I would like to ask unanimous consent to permit 
the chairman of Transportation and Infrastructure Committee, 
who is also a member of this panel, to make a brief opening 
statement.
    Mr. Young. Thank you, Mr. Chairman. It will be brief. I 
will, for the record, submit my written statement and again 
welcome you, Commandant. I have worked with the Coast Guard, I 
know longer than anybody on this committee. It has been my 
prime objective, ever since the Merchant Marine Committee was 
existing and then we lost control of that and we went to the 
Transportation Committee.
    I want to thank you. One of the reasons I am now chairman 
of that committee is because of the Coast Guard. You have 
played a very vital role. I have watched all the missions we 
have charged the Coast Guard with, prior to 9/11, the oil 
pollution, drug interdiction, immigration problems, all new 
charges that we didn't fund. Happily, the President is 
beginning to fund the program and this Congress will do also.
    My main interest from you, Commandant, is, of course, the 
Deepwater program. Again, you know my interest in that. I have 
read your testimony already, and I see that you are addressing 
that.
    The second interest is one that means a great deal to me, 
and I think you recognize, as I mention all along, there was a 
mass hysteria to try to have security within our ports, and I 
argued all along you cannot secure a port. You have to secure 
the port of origin of what comes into our ports to make sure it 
is safe. That is the way we make our ports safe, and I see you 
have addressed that internationally.
    We have some fine agreements. I hope you pursue that with 
the international maritime group so we can affect our commerce. 
We have to keep our commerce flowing and yes, have security, 
but the way you gain that is to make sure that those countries 
that import to us, as we accept those imports, everything that 
comes into the ports is secured.
    Mr. Chairman, I look forward to the Commandant's testimony 
and I yield back the balance of my time.
    [The information follows:]

The Prepared Statement of the Honorable Don Young, a Representative in 
                   Congress From the State of Alaska

    I am pleased to see the Commandant again this morning.
    As the other members of the committee know, I have worked with the 
Coast Guard to improve the safety and security of Maritime Commerce and 
the boating public as the chairman of the Transportation and 
Infrastructure Committee, which continues to have jurisdiction over the 
service.
    As you know, I am a strong supporter of the Coast Guard.
    The service is a multi-mission agency that is responsible for many 
important missions including search and rescue, marine safety, the 
licensing and documentation of mariners, maritime law enforcement, and 
oil pollution prevention and response.
    In addition to these many traditional missions, the Coast Guard has 
been designated as the lead federal agency for protecting Maritime 
Homeland Security.
    I look forward to hearing the Commandant explain how the homeland 
security mission is being carried out in concert with the service's 
other important historic missions.
    Over the years that I have been in Congress several Coast Guard 
missions have generated widespread public interest. Oil pollution 
response, migrant interdiction, and drug interdiction have all at one 
time or the other captured the public's attention.
    Fortunately, those of us who work frequently with the Coast Guard 
have continued to support all of the service's many missions.
    It is the breadth of coast guardsmen's training, and the multi-
mission capabilities of the service's personnel, ship and planes that 
give the United States a remarkably safe and economically productive 
maritime domain.
    I commend the chairman for holding this hearing today, and I look 
forward to the Commandant's testimony.

    Mr. Lungren. I thank the gentleman. The Chair will now 
recognize the ranking member of the full committee, the 
gentleman from Mississippi, Mr. Thompson, for any statement 
that he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman, Admiral 
Collins, welcome to the committee.
    Admiral Collins. Thank you.
    Mr. Thompson. I am sure you will be very positive while you 
are here. I would like to thank Ms. Sanchez also and join her 
in supporting the men and women of the U.S. Coast Guard. As a 
ranking member of the House Homeland Security Committee, I 
believe this committee must provide the Coast Guard with the 
support it needs to keep America's port and coast lines safe 
and secure.
    Our homeland security strategy depends on the security of 
our ports and waterways as our ports are dependent on securing 
a Coast Guard that is robust, dynamic and fully capable of 
performing a diverse set of missions.
    Since the tragic events of September 11th, the men and 
women of the U.S. Coast Guard have been on the front lines of 
the war against terror. As the Department of Homeland 
Security's principal agency for maritime security, the Coast 
Guard continues to play a lead role in securing the Nation's 
95,000 miles of coastline and 361 ports. This includes boarding 
high-interest vessels and assessing security at our ports.
    One of my primary concerns is whether the Coast Guard has 
the resources it needs to perform its many, many missions. I 
asked the same question at a field hearing we held recently in 
Vicksburg, Mississippi about these Coast Guard resources.
    At that time, I was told by Admiral Duncan that resources 
were sufficient. But I have had a hard time completely 
believing, when I see the activities put on the Coast Guard 
since 9/11, and would love to hear your position from that, 
Admiral. I have had concerns about the Deepwater program. Make 
no mistake, I am a strong supporter of the program. I supported 
the authorization of the $1.1 billion for Deepwater last year 
as a conferee on the 2004 Coast Guard authorization bill.
    But the management challenges raised by GAO are 
considerable, and I hope that your testimony will address some 
of these problems. We simply cannot allow poor management to 
result in squandered resources and delays in the implementation 
of important Homeland Security projects such as Deepwater.
    Finally, I would like to hear the steps taken by the Coast 
Guard to protect our inland waterways. As you know, the 
Mississippi River borders the entire western half of my 
district, and obviously it is absolutely a priority for a lot 
of us. While the inland ports do not receive attention the 
coastal ports do, they are just as vulnerable and a terrorist 
attack will cause significant loss of life and economic damage.
    As you know, the Coast Guard is considered a very valuable 
piece of the Homeland Security proposal. In fact, some might 
even call the Coast Guard their king. Given the important work 
you folks do, we certainly understand why. Admiral Collins, 
welcome. I look forward to your testimony.
    Admiral Collins. Thank you, sir.
    Mr. Lungren. The Chair now recognizes the chairman of the 
full committee, the gentleman from California, Mr. Cox for any 
statement he may have.
    Mr. Cox. Thank you very much, Chairman Lungren, Ranking 
Member Sanchez, for putting this hearing together today, and 
especially, Admiral Collins, thank you very much for appearing 
here today. As you know this committee is strongly supportive 
of the Coast Guard and its mission. It has been our observation 
over the last several years, both as the Permanent Committee 
and as the Select Committee, that the Coast Guard, among the 
elements that were contributed to this new cabinet department 
at the Department of Homeland Security, is really the crown 
jewel, and your mission, even before September 11th, even 
before the creation of the Department of Homeland Security, 
lined up very nicely with what became the mission, the national 
security mission, of what is now the third largest cabinet 
department.
    To put today's hearing in proper context to understand the 
daunting challenges of Homeland Security when it comes to such 
issues as container shipping, it is important to note at the 
outset that America is connected to the rest of the world, to 
the global economy, primarily through the maritime sector.
    More than 95 percent of our overseas trade arrives in the 
United States by ship. That is about 8,000 ships carrying 
multinational crews and cargo from around the globe, making 
more than 51,000 U.S. port calls every year. More than 7 
million containers are coming into this country every year.
    This maritime environment is amazingly complex, and the 
government regulatory structure that has gone grown up to deal 
with it is likewise amazingly complex, even excluding State and 
local regulations. The number of Federal regulatory agencies 
responsible for dealing with various aspects of our maritime 
security is daunting.
    There are separate regulatory systems to monitor discrete 
aspects of maritime activity from tracking and targeting high-
risk vessels and crews, to screening the cargo on board those 
vessels and to vetting passengers aboard the vessel. There is 
often reasonable justification for this kind of division of 
responsibilities.
    But these divisions can also provide opportunities for our 
enemies. We know from experience that terrorists seeking to 
harm America study our systems and seek to exploit gaps in 
those systems. It is for this reason that the creation of the 
Department of Homeland Security brought under one roof for the 
first time, the major elements of our maritime security system. 
The Coast Guard has been given lead responsibility to insure 
the seamless execution of this critical mission.
    What is required is a level of coordination and information 
sharing that simply didn't exist prior to September 11, 2001. 
We now know that our national ability to detect potential 
threats from the maritime arena request be significantly 
improved through effective sharing of information. With such 
advance information on inbound ships, and on cargo, crews and 
passengers, border control agencies will be better able to 
identify those that require more thorough security screening, 
exploiting available information to discern threats and 
concentrating resources to stop them, is at the heart of the 
maritime domain awareness concept, and it is the key to 
effective risk management.
    In May of last year, the Select Committee on Homeland 
Security held a hearing examining the coordination of maritime 
security responsibilities and operations among DHS agencies. 
This included a look at the various air and maritime 
acquisition plans within the Department.
    One year later, this hearing today will provide a status 
update on the level of improved coordination. In particular, we 
will exam how various initiatives, such as the C4ISR program, 
joint harbor operation centers and other similar activities are 
working to bridge the interoperability gap between the various 
maritime and port security agencies within DHS and between 
these agencies and State and local law enforcement and port 
authorities across the country. We will also examine the 
cornerstone of the Coast Guard's long-term strategy for 
carrying out both its Homeland Security and nonHomeland 
Security security missions, the integrated Deepwater system.
    This quarter-century long acquisition project with costs 
estimated to range from $19 billion to $24 billion will provide 
a complete modernization of Coast Guard assets. Deepwater, 
which was developed in the late 1990s, had to be revised to 
accommodate the Coast Guard's new and enhanced Homeland 
Security responsibilities post-9/11. The revised plan was 
delivered to Congress at the end of last month. This hearing 
will kick off the committee's oversight of whether these 
revisions to Deepwater adequately account and provide for the 
Coast Guard's Homeland Security requirements.
    In 2003, the Journal of Homeland Security published an 
interview with Admiral Collins in which he stressed that the 
Coast Guard accomplishes its various missions through capacity, 
capability and partnerships. Today's hearing will provide us 
with an opportunity to explore each of these areas as part of 
our broader examination of the Coast Guard's authorization 
needs in its Homeland Security mission areas.
    Again, thank you, Mr. Chairman for holding this hearing. I 
look forward to the Commandant's testimony and an opportunity 
to further explore these issues.
    [The information follows:]

      prepared Opening Statement of the Honorable Christopher Cox

    Thank you, Chairman Lungren, and welcome, Admiral Collins. To put 
today's hearing in the proper context, it is important to note, at the 
outset, that America is connected to the global economy primarily 
through the maritime sector. More than 95 percent of overseas foreign 
trade (and 100 percent of certain commodities, such as foreign oil) 
arrives in the U.S. by ship. Approximately 8,000 ships carrying 
multinational crews and cargo from around the globe make more than 
51,000 U.S. port calls each year. More than 7 million containers enter 
the country annually.
    This complex maritime environment has had similarly complex 
governmental regulation. Even excluding state and local government 
involvement, there are several different Federal agencies utilizing 
separate systems to monitor discrete aspects of maritime activity--from 
tracking and targeting high-risk vessels and crews, to screening the 
cargo on board those vessels, to vetting passengers aboard such 
vessels.
    While there is often reasonable justification for division of 
responsibility, such divisions can also provide opportunities for our 
enemies--whom we know from experience study our systems and seek to 
exploit the gaps in such systems. The creation of the Department of 
Homeland Security brought under one roof, for the first time, the major 
elements of our maritime security system, and the Coast Guard has been 
given lead responsibility to ensure the seamless execution of this 
critical mission.
    Such execution requires a level of coordination and information 
sharing that simply did not exist prior to September 11, 2001. We now 
know that our national ability to detect potential threats from the 
maritime arena can be significantly improved through effective sharing 
and use of information. With sufficient advance information on inbound 
ships, cargo, crews, and passengers, border control agencies will be 
better able to identify those that require more thorough security 
screening. Exploiting available information to discern threats and 
concentrate resources to stop them is at the heart of the maritime 
domain awareness concept, and the key to effective risk management.
    In May of last year, the Select Committee held a hearing examining 
the coordination of maritime security responsibilities and operations 
among DHS agencies, including the various air and marine acquisition 
plans within the Department. One year later, this hearing will provide 
a status update on the level of improved coordination. In particular, 
we will examine how various initiatives such as the C4ISR program 
(which stands for Command, Control, Communication, Computer, 
Intelligence, Surveillance, and Reconnaissance), joint harbor 
operations centers, and other similar activities are working to bridge 
the interoperability gap between the various maritime and port security 
agencies within DHS, and between such agencies and state and local law 
enforcement and port authorities across the country.
    We also will examine the cornerstone of the Coast Guard's long-term 
strategy for carrying out both its homeland and non-homeland security 
missions--the Integrated Deepwater System. This 20-25 year acquisition 
project with costs ranging from $19 billion to $24 billion will provide 
a complete modernization of Coast Guard assets. Deepwater, which was 
developed in the late 1990s, had to be revised to accommodate the Coast 
Guard's new and enhanced homeland security responsibilities post-9/11. 
The revised plan was delivered to Congress at the end of last month, 
and this hearing will kick off the Committee's oversight of whether 
these revisions to Deepwater adequately account and provide for the 
Coast Guard's homeland security requirements.
    In 2003, the Journal of Homeland Security published an interview 
with Admiral Collins in which he stressed that the Coast Guard 
``accomplishes its various missions through capacity, capability and 
partnerships.'' Today's hearing will provide us with an opportunity to 
explore each of these areas, as part of our broader examination of the 
Coast Guard's authorization needs in its homeland security mission 
areas.
    Again, thank you Mr. Chairman for holding this hearing. I look 
forward to the Commandant's testimony and an opportunity to further 
explore these issues.

    Mr. Lungren. I thank the gentleman for his statement. Other 
members of the committee are reminded that opening statements 
may be submitted for the record. We are pleased to have a 
distinguished witness as our only witness before us today on 
this important topic. It is my pleasure as the Chair to 
recognize Admiral Thomas Collins, the Commandant of the United 
States Coast Guard to testify.
    Welcome.

STATEMENT OF ADMIRAL THOMAS COLLINS, COMMANDANT, UNITED STATES 
          COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Collins. Well, thank you very much, Mr. Chairman, 
good afternoon to you and to distinguished members of this 
committee. It is an honor and a pleasure to be here with you to 
discuss how the Coast Guard is contributing to maritime 
security of the United States.
    Quite simply, Mr. Chairman, the bottom line is America, the 
maritime sector is safer today than it was in 2001. We still 
have a ways to go. But we have made incredible progress, from 
my perspective, to enhance the maritime security posture 
implementing programs and practices that are already paying 
substantial dividends in the way of risk mitigation, risk 
mitigation.
    Our approach has been to draw upon and enhance Coast Guard 
strength first as an armed force; second as a law enforcement 
agency, as a first responder and a regulator. When you add up 
those things, that makes us a unique agency in this government.
    The other important ingredient is we pursue risk 
mitigation, to partner aggressively, both domestically and 
internationally so it mitigates security risk on this global 
system, as Congressman Young alluded to.
    It is a heavy dose of preemption that characterizes our 
approach, being preemptive and not static in our approach the 
maritime. We developed a strategy that has four parts. One, as 
you have already referred to, to enhance the concept we call 
maritime domain awareness, a very, very important part of this 
strategy. The second to create and oversee a maritime security 
regime, one that did not exist prior to 9/11.
    Third, to increase our operation presence, to be persistent 
for deterrence and response and then overall, improve our 
response posture in the event an incident does occur. There are 
a number of very comprehensive initiatives that we have taken 
in each one of these four buckets, four categories. Many are 
detailed in my written statement. If you will permit me, I will 
highlight just a select few to give you a flavor for our areas 
of emphasis.
    Since 9/11, the central element of our strategy requires 
increasing knowledge of our vulnerabilities, our threats and 
targets of interest. It depends on timely information sharing, 
partnering with others, both at home and abroad, building on 
current international cooperative security events and preparing 
to respond quickly to future events.
    For example, since 9/11 we have made changes to improve our 
operational intelligence by building out our intelligence 
program, by increasing our advance notice of arrival from 24 
hours to a minimum of 96 hours for all foreign vessels and 
expanded the type and the amount of information required. This 
information and the vetting of this information is critical to 
assess inbound risk.
    We have built a robust maritime security regime predicated 
on the maritime Transportation Security Act of 2002 and the 
International Ship and Port Security Code or ISPSC code that 
was pushed through the International Maritime Organization. We 
have reviewed and approved thousands of vessel facility 
security plans an, insured compliance through literally 
thousands of boarding and inspections of foreign vessels. We 
have set up 13 new deployable maritime security teams, and we 
are full partners in the foreign intelligence community and 
have operationalized this in 30 field intelligence port units 
around the country.
    We are realigning and integrating our field structure--that 
is where security gets delivered--into single multimission 
commands called sectors across the country and are moving ahead 
on critical command and control technologies like Rescue 21 and 
Command 2010 to improve our operational effectiveness.
    Overall, we have made, I think, considerable progress in 
implementing our maritime Homeland Security strategy in the 
four main areas that I talked about. We will continue efforts 
to close perceived security gaps by increasing our capabilities 
and our capacity to deal with those gaps.
    In a response to HSPD 13, the Homeland Security 
Presidential Directive 13 and a counterpart, National Security 
Directive 41 are the same document, cosponsored by those two 
White House bodies. We are very enthused as a maritime 
organization, very enthused about our current efforts, 
interagency efforts to develop a comprehensive, national 
interagency strategy covering a broad range of maritime 
security issues and functions. Hopefully you will see the 
results of those labors this summer.
    I should note that the Coast Guard's inventory of 
capabilities and capacities to address the full range of our 
missions is critical to mitigating security risks now and into 
the future.
    As already mentioned by committee members, Deepwater is the 
enduring solution to that capacity and capability issue to 
mitigate risk. It is the key for us to develop the proper level 
of readiness and to meet our missions across the board. They 
are essential to providing the necessary capabilities to secure 
our borders, to fight the war on terror and meet the full range 
of the missions of search and rescue and beyond.
    The President's fiscal year 2006 budget presses forward 
each element of our maritime security strategy. It does move 
the ball along in maritime domain awareness, it furthers our 
efforts to tighten security, develop and to tighten the 
security regime. It increases our operational presence and 
improves our response posture.
    So I think with this budget, in support of this budget, we 
will continue to push ahead aggressively across this 
challenging area.
    I thank you very much for the opportunity to testify before 
you today. I will be happy to take any questions that you may 
have, Mr. Chairman, and your committee members.
    [The statement of Admiral Collins follows:]

          Prepared Statement of the Admiral Thomas H. Collins

    Good afternoon Mr. Chairman and distinguished members of the 
Committee. It is a pleasure to appear before you today to discuss the 
Coast Guard's role in homeland security, and specifically maritime 
homeland security.
    The Coast Guard is a military, multi-mission, maritime service. It 
is those core elements of the service's character coupled with its 
broad statutory authorities, membership in the Intelligence Community, 
command and control structure, and extensive experience conducting 
maritime operations that uniquely equip the Coast Guard to conduct 
maritime homeland security missions. For homeland security, the Coast 
Guard serves as (1) the lead Federal agency for Maritime Homeland 
Security; (2) the Federal Maritime Security Coordinator in U.S. ports 
as designated by the Maritime Transportation Security Act (MTSA) of 
2002; and (3) as a supporting or supported commander for military 
operations conducted under Title 10. These and other critical roles 
have imparted a tremendous challenge on Coast Guard men and women and I 
would be remiss without remarking on their many accomplishments since 
September 11, 2001. For example:
        <bullet> Before 9/11 we had no mandatory ship-tracking 
        requirement; now we have forged an international agreement to 
        accelerate the requirement for Automatic Identification System 
        (AIS) capability. It went into effect in December 2004. 
        Simultaneously, we have initiated a major acquisition project 
        for AIS. It has allowed us to deploy immediate capability 
        including AIS shore stations in VTS ports, outfitting NOAA 
        buoys offshore, and testing AIS receiving capability from a 
        low-flying satellite.
        <bullet> Before 9/11 we had no formal international or domestic 
        maritime security regime for ports, port facilities, and 
        ships--with the exception of cruise ships. Partnering with 
        domestic and international stakeholders, we now have both a 
        comprehensive domestic security regime and an international 
        security convention in place. Both have been in force since 
        July 1, 2004.
        <bullet> Before 9/11 we were shorthanded and could not have met 
        mission requirements without our Reserves and Auxiliary. While 
        our Reserve and Auxiliary forces continue to make vital 
        contributions, since 9/11 we have:
                o Established 13 new Maritime Safety and Security 
                Teams,
                o Deployed over 80 new small boats (RB-S) and boat 
                crews,
                o Provided radiation detection capabilities to our 
                boarding teams,
                o Deployed field intelligence support teams to better 
                collect and disseminate maritime threat information,
                o Acquired fifteen 87-foot Coastal Patrol boats four 
                179-foot coastal patrol craft to increase operational 
                presence in our ports.
        <bullet> Before 9/11 our prevention, protection, and response 
        activities were coordinated by multiple commands in a single 
        geographic location. Since 9/11, we have begun establishing 
        Sector commands to streamline our command-and-control 
        structure, provide unity of command, and offer one-stop 
        shopping for port stakeholders. It is an organization re-
        alignment that will have long term positive impacts on our 
        response and recovery posture.
    Looking at their accomplishments, it is clear that Coast Guard men 
and women continue rising to the challenge and delivering tangible and 
important results across all Coast Guard mission-programs. No amount of 
new technology or capability enhances security more than the daily 
dedication of our personnel. They are the indispensable link in any 
strategy and I am continually impressed by their ingenuity, courage, 
and dedication.
    The Coast Guard has responded to a broad and substantial level of 
maritime risk with a comprehensive maritime security strategy that 
guides our operational and resource planning. We have made tremendous 
progress in a short period of time. Much of our success to date is a 
direct result of the strong support we have enjoyed from Congress. 
Through the passage of MTSA and subsequent laws providing for the 
resources to implement this new law, Congress enabled the Coast Guard 
to successfully institute a maritime security regime that now serves as 
a global model for maritime security. But there is clearly more to do 
and I echo the consensus of most on this topic; we are safer but not 
yet safe. In the years ahead, Coast Guard readiness will continue to be 
the key challenge to our ability to deliver results to the American 
people.

Maritime Security Risks
    The maritime domain is of unparalleled strategic importance. In 
terms of threat, vulnerability, and consequence, there are few more 
valuable and vulnerable targets than the global maritime transportation 
system. I stress the words global and system here because it is 
critical to understand the broad and diverse nature of the maritime 
domain in order to adequately confront the threats. Increasingly, the 
maritime security of the United States depends as much on international 
cooperation and partnerships as it does on our ability to effect 
security enhancements within areas of exclusive U.S. jurisdiction; 
areas which by comparison make up only a small fraction of this global 
system.
        <bullet> Threat: While the 9/11 Commission notes the continuing 
        threat against our aviation system, it also states that 
        ?opportunities to do harm are as great, or greater, in maritime 
        or surface transportation.? From smuggling to piracy, suicide 
        attacks to the threat of weapons of mass destruction, the 
        threats are many and varied.
        <bullet> Vulnerability: The maritime transportation system 
        annually accommodates 6.5 million cruise ship passengers, 
        51,000 port calls by over 7,500 foreign ships, at more than 360 
        commercial ports spread out over 95,000 miles of coastline. The 
        vastness of this system and its widespread and diverse critical 
        infrastructure leave the nation vulnerable to terrorist acts 
        within our ports, waterways, and coastal zones, as well as 
        exploitation of maritime commerce as a means of transporting 
        terrorists and their weapons.
        <bullet> Consequence: Contributing nearly $750 billion to the 
        U.S. gross domestic product annually and handling 95% of all 
        overseas trade each year--the value of the U.S. maritime domain 
        and the consequence of any significant attack cannot be 
        overstated. Independent analysis has estimated the economic 
        impact of a forced closure of U.S. ports for a period of only 
        eight days to have been in excess of $58 billion to the U.S. 
        economy.
    The only way to effectively address and mitigate these risks is 
through a layered approach to security. The targets are too many and 
infrastructure too diverse to rely solely on efforts within the 
geographic confines of U.S. ports. It requires a layered defense 
comprising the full range of maritime security operations and measures, 
starting overseas and extending to U.S. shores, ports, and internal 
waterways. This defense-in-depth will enable the Coast Guard to address 
both external and internal threats across the full geographic spectrum 
and at multiple points in an attack event chain. Simply put, U.S. port 
security cannot start nor end within our own ports.

Maritime Security Objectives and Strategy
    The Coast Guard's overarching maritime security objectives are to 
prevent attacks in the U.S. maritime domain, protect maritime related 
critical infrastructure and key assets, and ensure we're prepared to 
respond to, and can expedite recovery from, an attack. These primary 
objectives--Prevent, Protect, and Response/Recovery--guide our 
operational and resource planning. Underlying each is the need for 
Maritime Domain Awareness (MDA), enabled by our ability to collect, 
fuse, analyze and disseminate large amounts of maritime data, 
information and intelligence in a way that facilitates effective 
decision making at every level of command. Preventing terrorist attacks 
increasingly depends on ensuring we get the right information, to the 
right people, at the right time, and in the right form so that optimal 
decisions can be made.
    The Coast Guard's Maritime Strategy for Homeland Security is in 
direct alignment with the Department of Homeland Security's strategic 
goals of Awareness, Prevention, Protection, Response and Recovery, and 
is encapsulated in the below four pillars:
    (1) Enhance MDA. We seek to increase our awareness and knowledge of 
what is happening in the maritime arena, not just here in American 
waters, but globally. We need to know which vessels are in operation, 
the names of the crews and passengers, and the ship's cargo, especially 
those inbound for U.S. ports. MDA is critical to separate the law-
abiding sailor from the anomalous threat. The core of our MDA efforts 
revolve around the development and employment of accurate information, 
intelligence, and targeting of vessels, cargo, crews and passengers--
and extending this well beyond our traditional maritime boundaries. All 
DHS components are working to provide a layered defense through 
collaborative efforts with our international partners to counter and 
manage security risks long before they reach a U.S. port.
    (2) Create and oversee an effective maritime security regime. To 
help prevent terrorist attacks we have developed and continue to 
improve an effective maritime security regime--both domestically and 
internationally. This element of our strategy focuses on both domestic 
and international efforts and includes initiatives related to MTSA 
implementation, International Maritime Organization regulations such as 
the International Ship & Port Facility Security (ISPS) Code, as well as 
improving supply chain security and identity security processes.
    (3) Increase Operational Presence. We seek to better protect 
critical maritime infrastructure and improve our ability to respond to 
suspect activities by increasing our operational presence in ports, 
coastal zones and beyond . . . to implement a layered security posture, 
a ``defense-in-depth''. Our collective efforts to increase operational 
presence in ports and coastal zones focus not only on adding more 
people, boats and ships to force structures but making the employment 
of those resources more effective through the application of 
technology, information sharing and intelligence support.
    (4) Improve Response and Recovery posture. Finally, we are 
improving our ability to respond and aid in recovery if there were an 
actual terrorist attack. Understanding the challenge of defending 
26,000 miles of navigable waterways and 361 ports against every 
conceivable threat at every possible time, we are also aggressively 
working to improve our response capabilities and preparedness.
    The Coast Guard continues to guide its efforts by implementing 
policies, seeking resources, and deploying capabilities through the 
lens of the above maritime security strategy. However, continued risk 
reduction is contingent upon Coast Guard readiness and capacity. 
Without these basic building blocks, the implementation of maritime 
security strategies will not be sustainable. It is no surprise then 
that readiness and capacity are the focus of my most pressing concerns 
in fulfilling maritime security missions.

Maritime Security Challenges
    Coast Guard readiness is a product of its authorities, 
capabilities, competencies and partnerships. Each provides a tool for 
action and no where has this been more important than in the Coast 
Guard's response to the current security environment. While each is 
critical to success, I will focus today on the authorities and 
capabilities the Coast Guard seeks to equip itself with to ensure it is 
ready to meet the mission demands of today and tomorrow.

Authorities
    The Coast Guard greatly appreciates the tradition of the 
Administration supporting and Congress passing a Coast Guard 
Authorization Act each year, as has been the case for three consecutive 
years. These annual Acts help us keep critical authorities at the 
cutting edge, enabling us to respond quickly and effectively to the new 
challenges our service faces daily.
    On April 12th, we transmitted to the Congress the Administration's 
proposed Coast Guard Authorization Act for 2005. The bill contains 
sixteen provisions that provide the Coast Guard with important new 
authorities, as well as expansions and clarifications of existing 
authorities. I ask that you adopt these provisions and would like to 
highlight a few of them here today.

Merchant Mariner Credentials
    The awful events of September 11th 2001 made clear that our country 
must take more care in controlling who is able to secure and use 
government-issued forms of identification. The 9/11 Commission report, 
noted that the September 11th hijackers obtained and used government-
issued identification cards such as driver's licenses. The Commission 
recommended that forms of identification be made more secure. Congress 
mandated the development of a biometric transportation security card in 
MTSA. The Coast Guard is assisting the Transportation Security 
Administration (TSA) with the implementation of this requirement. The 
card is known as the Transportation Worker Identification Credential 
(TWIC).
    Concurrently, the Coast Guard has proposed revisions to the 
existing merchant marine document (MMD) requirements. These documents 
are, by statute, identification documents, yet they contain virtually 
no security features. This, among other reasons, is why, with the 
support of the President and Secretary, I have submitted a complete 
update of the merchant mariner credentialing statutes. We cannot, and 
must not, continue with business as usual in the area of mariner 
credentialing. Not when, as this committee is well aware, our ports and 
harbors are still vulnerable to terrorist attack. The specter of a 
terrorist obtaining and using a merchant mariner credential to access 
and attack vital areas of a strategic port is one that is very real. 
The changes we have proposed will enable the Department to heighten the 
security of all merchant mariner credentials in partnership with the 
mariners themselves and the maritime industry. Additionally, the Coast 
Guard will work with TSA to ensure the regulations for obtaining the 
MMDs are consistent with TWIC to minimize future impacts on mariners 
and to ensure mariners undergo appropriate security threat assessments 
in accordance with MTSA.
    Our proposal enhances the Coast Guard's ability to be flexible and 
agile in establishing appropriate criteria and processes for obtaining 
merchant mariner credentials and in recovering them from unqualified 
holders. Our proposal also updates the mariner credentialing statutes. 
The existing merchant mariner credentialing statutes have developed 
piecemeal over the last 50 years and have not been comprehensively 
updated since 1983, over twenty years ago in a very different world. As 
a result, they are unclear, self contradictory and in some cases 
obsolete. This proposal would update, clarify, and simplify the 
statutes allowing the Coast Guard to better administer the mariner 
credentialing program as well as addressing the many changes in the 
domestic and international maritime communities, and especially, as I 
mentioned above, security concerns post September 11th.

Critical issues the Administration's proposal addresses include:
        <bullet> Authority to conduct background checks to evaluate 
        mariners for both maritime security and maritime safety 
        purposes,
        <bullet> Authority to issue a single merchant mariner 
        credential, including allowing for the merger with the TWIC,
        <bullet> Authority to issue cadet credentials (including to 
        foreign cadets) for training and educational purposes,
        <bullet> Authority to refuse to issue a merchant mariner 
        credential to a mariner who is a maritime safety or security 
        risk, and
        <bullet> Authority to refuse to issue a merchant mariner 
        credential for one year to a mariner who lies on application.
    The suspension and revocation chapter allows for immediate 
temporary suspension of a merchant mariner credential where the mariner 
is involved in an accident involving death or serious injury or where a 
mariner is determined to be a threat to security or safety. Because we 
are very concerned with fairness and the rights of merchant mariners, 
it also requires a hearing on any temporary suspension within 30 days 
of the suspension. The proposal also enhances compliance with the law 
by adding significant new civil and criminal penalties for making, 
using, or presenting fraudulent credentials.

Other Authorization Priorities
    Our proposed bill also includes some seemingly small but critically 
important provisions that would enhance our authorities in maritime 
homeland security and drug interdiction. These are Extension of Coast 
Guard Vessel Anchorage and Movement Authority, which would extend to 12 
miles the Coast Guard's authority to enact maritime protection zones 
around naval vessels; Enhanced Civil Penalties for Violations of the 
Maritime Transportation Security Act (MTSA), which would make each day 
of a continuing violation of MTSA maritime security regulations a 
separate offense; and Certification of Vessel Nationality in Drug 
Smuggling Cases, which would allow the certification of the 
nationality, or lack thereof, of interdicted drug smuggling vessels 
without the presence in a U.S. court of foreign officials.
    The Administration's bill includes other important provisions that 
would improve our management of the officer corps, streamline and lower 
costs of small procurements and clarify and update the tonnage laws 
administered by the Coast Guard. In addition, it includes several 
provisions to improve the Coast Guard's ability to carry out non-
homeland security missions as well. Most notably, the Administration's 
proposal would authorize the Secretary to establish a pilot program to 
conduct mandatory dockside crew survivability examinations on 
uninspected U.S. commercial fishing vessels in two geographic areas 
over the next five (5) years. The purpose of the pilot program would be 
to examine fishing vessels and their crews to ensure the required 
safety equipment is on board and that the crew is trained and exercised 
in its proper use. Currently, the Secretary does not have the authority 
to conduct mandatory dockside exams. We estimate that only 6 percent of 
the owners or operators of the approximately 90,000 uninspected 
commercial fishing vessels operating in the U.S. today make their 
vessels and crew available to the Coast Guard for a voluntary dockside 
examination. Since 1991, when the Coast Guard first began offering 
voluntary examinations, history has demonstrated that the crews of 
fishing vessels examined under such a program have a much higher 
survivability rate during an accident or loss of the vessel. I ask for 
your support in enacting the President's proposed bill.

Capabilities
    The President's 2006 Budget requests funding to continue the 
urgently needed recapitalization of our cutters, boats, aircraft and 
support infrastructure to reverse declining readiness trends and 
enhance operational capabilities to meet today's maritime safety and 
security threats. As detailed in the National Strategy for Homeland 
Security, this restoration of Coast Guard capability is a critical need 
in protecting the homeland.
    Many of the Coast Guard's operational assets will reach the end of 
their anticipated service lives by 2008, resulting in rising operating 
and maintenance costs, reduced mission effectiveness, unnecessary 
risks, and excessive wear and tear on our people. Listed below are some 
specific examples highlighting alarming system failure rates, increased 
maintenance requirements, and the subsequent impact on mission 
effectiveness:
        <bullet> HH-65 helicopter in-flight engine power losses 
        occurred at a rate of 329 mishaps per 100,000 flight hours in 
        FY 2004. This is up from a FY 2003 rate of 63 mishaps per 
        100,000 flight hours. The comparable Federal Aviation 
        Administration acceptable standard for a mishap of this 
        severity is approximately 1 per 100,000 flight hours. The 
        engine loss rate has resulted in flight and operational 
        restrictions and high levels of risk to our aircrews. Re-
        engining the HH-65 will remain the Coast Guard's highest legacy 
        asset priority until every HH-65 aircrew is flying safely with 
        a fully capable aircraft. (The 2006 Budget addresses this 
        issue.)
        <bullet> The 110-foot Patrol Boat fleet has experienced 23 hull 
        breaches requiring emergency dry docks. The resultant loss in 
        operational days is unsustainable, and risks to our personnel 
        are unacceptable. (The Deepwater fast response cutter 
        initiative helps eliminate this issue.)
        <bullet> Our high and medium endurance cutters are experiencing 
        sub-system failures due to old and unserviceable systems. The 
        378-foot WHEC fleet averages one main space casualty, with 
        potential to escalate to main space fire, on every patrol. 
        Three out of a total class of twelve ships have recently missed 
        operations due to unscheduled maintenance required to repair 
        failing sub-systems. The total number of unscheduled 
        maintenance days for the major cutter and the 110' Patrol Boat 
        fleet has risen from 267 days in FY 1999 to 742 days in FY 2004 
        (175 percent increase over FY 1999). This loss of operational 
        cutter days in 2004 equates to losing four cutters, or 10% of 
        our major fleet for an entire year. (The FY 2006 budget 
        addresses this issue through increased investment in out legacy 
        systems.)
    The contributions of Deepwater legacy assets to maritime safety and 
security are not theoretical, evidenced by the below accomplishments in 
2004 alone:
        <bullet> Operation ABLE SENTRY blanketed the coastline of Haiti 
        with Coast Guard Deepwater assets, which interdicted over 1,000 
        illegal migrants during this operation and deterred many 
        thousand more from taking to sea in unsafe boats.
        <bullet> The 378-foot Coast Guard Cutter GALLATIN, and its 
        Airborne Use of Force (AUF) capable helicopter seized more than 
        24,000 pounds of cocaine worth an estimated $768 million and 
        detained 27 suspected smugglers in the span of seven weeks.
        <bullet> The Coast Guard's Deepwater cutters and aircraft 
        patrolled over 28,000 hours in direct support of maritime 
        homeland security missions. 110-foot patrol boats alone 
        patrolled 13,000 hours supporting port and coastal security 
        missions including, cruise ship escorts, critical 
        infrastructure protection, and countless security boardings.
        <bullet> Working in conjunction with the U.S. Secret Service 
        during the national political conventions, 270-foot Medium 
        Endurance cutters and 110-foot patrol boats provided maritime 
        security, enforced security zones, and served as command and 
        control platforms coordinating maritime traffic. Deepwater 
        aircraft, equipped with the AUF package, provided air security 
        and conducted maritime security patrols.
    Despite spending increasing amounts maintaining operational assets, 
the Coast Guard is experiencing a continuing decline in fleet 
readiness. Legacy cutters are now operating free of major equipment 
casualties (equipment failures that significantly impact mission 
performance) less than 50 percent of the time, despite the investment 
per operational day increasing by over 50 percent over the last six 
years. The resulting ``readiness gap'' negatively impacts both the 
quantity and quality of Coast Guard ``presence''--opening an 
unacceptable hole in our layered defense. If declining readiness trends 
continue, Coast Guard capability and capacity will continue to be 
reduced exactly when the nation needs it most.
    The Integrated Deepwater System is the enduring solution to both 
the Coast Guard's declining legacy asset readiness concerns and the 
need to implement enhanced maritime security capabilities to reduce 
maritime risk in the post-9/11 world. Aggressive implementation of the 
Deepwater program will recapitalize the Coast Guard fleet and introduce 
much needed surveillance, detection/clarification, intercept, 
interdiction and command and control capabilities.
    The original Deepwater contract baseline sought to replace Coast 
Guard assets operating at their 1998 performance levels. The post-9/11 
national strategic security environment demanded that the original 
Deepwater solution be revised to defeat terrorist threats, address 
contemporary mission demands, and satisfy current and emergent 
operational priorities. In early July 2003, I directed an internal 
Coast Guard study to analyze operational capability and capacity gaps 
and the impact these gaps have on mission performance. This process, 
known as the Integrated Deepwater System Performance Gap Analysis 
(PGA), identified significant capability and capacity gaps in the 
existing Deepwater system implementation plan designed to meet the 1998 
performance baseline.
    Based on the results of the PGA, the Coast Guard, working with the 
Department, updated Deepwater capability and capacity requirements 
through development of a revised Mission Needs Statement (MNS). The 
revised MNS, approved by the Department of Homeland Security on January 
24, 2005, calls for additional system-wide capabilities to extend the 
borders of our ports and reduce maritime homeland security risk. Based 
on the revised MNS, the Coast Guard developed a revised Deepwater 
Implementation Plan to reflect new post-9/11 system requirements.
    The revised plan addresses the Coast Guard's dual challenges of 
legacy-asset deterioration and performance gaps by (1) enhancing the 
performance of selected Deepwater assets through added capabilities and 
conversions, including C4ISR systems; (2) adjusting the implementation 
schedule and mix of individual assets over the life of the program; (3) 
providing necessary balance over the life of the program based on the 
Department of Homeland Security's strategic goals, current and emerging 
mission requirements, and the need to provide for a high-quality 
workplace for Coast Guard men and women.
    In addition to delivering more capable operating assets for the 
Coast Guard's post-9/11 transformation to support DHS strategic goals 
and to reduce maritime security risk, the revised plan will enable the 
Deepwater Program to make more significant contributions to improved 
information sharing, collaboration, and interoperability in the 
maritime domain--essential capabilities to implement the Maritime 
Strategy for Homeland Security, and in particular enhance MDA.
    The Revised Implementation Plan ensures Deepwater cutters and 
aircraft will be equipped with the right systems and capabilities 
(summarized below) to operate successfully in the post-9/11 threat 
environment. These changes are critical to ensuring the maritime 
security of America and its $750 billion maritime transportation 
system, including:
        <bullet> An innovative, integrated network-centric C4ISR system 
        to harness the power of an interoperable network to enhance 
        performance in all mission areas, improve MDA, and provide a 
        common operational picture--key to Coast Guard leading the 
        inter-agency effort to know and respond to maritime conditions, 
        anomalies, vulnerabilities, and threats. Improvements to C4ISR 
        enable earlier awareness of events through the more effective 
        gathering and fusing of terrorism-related information, 
        analysis, coordination, response--all critical to detecting, 
        deterring, and defeating terrorist attacks. Upgrades to 
        Deepwater surface assets, for example, contribute directly to 
        improved intelligence collection and fusion through a 
        sophisticated Shipboard Sensitive Compartmentalized Information 
        Facility (S/SCIF), sensors, and increased data-exchange 
        bandwidth;
        <bullet> Improved maritime-security capabilities such as 
        increased speed and integrated weapons systems on selected 
        Deepwater cutters essential to higher levels of maritime 
        homeland security during a terrorist attack, opposed boardings, 
        and other high-risk operations;
        <bullet> Airborne use of force and vertical insertion and 
        delivery capabilities to allow helicopters to provide warning 
        and/or disabling fire, and to deploy, deliver, and recover 
        boarding teams safely and more effectively;
        <bullet> Improved fixed-wing long-range surveillance aircraft 
        to increase MDA and reduce maritime patrol aircraft shortfalls 
        in operating hours; organic Coast Guard air transport 
        capability will enable deployment of Maritime Safety and 
        Security Teams and National Strike Force teams for faster, more 
        effective response.
        <bullet> Improved capabilities for anti-terrorist/force 
        protection on select Deepwater assets with all-weather self-
        defense and the ability to protect high-value assets; assets 
        will have the capability to engage terrorists with higher 
        assurance of survivability and continued mission capability; 
        and
        <bullet> Improved asset capabilities for detection and defense 
        for chemical-biological-radiological (CBR) threats--essential 
        to survival and continued operations during a CBR attack 
        involving a weapon of mass destruction.
    The Deepwater system's performance-based acquisition strategy will 
allow the Coast Guard to respond to changing conditions and threats, 
and provides a vehicle for capability and schedule adjustments over the 
life of the program--maximizing value and performance through 
technology refreshment and innovation. The flexibility inherent in 
Deepwater's acquisition will enable the Coast Guard to adjust the final 
mix of selected platforms as overall system-of-systems capability 
improvements are generated by, for example, significant improvements to 
the program's system for C4ISR or Unmanned Aerial Vehicle (UAV) 
technology.
    Our plan to incorporate improved post-9/11 operational capabilities 
on all major surface and aviation platforms will reap significant 
system-wide performance improvements that will have a bearing on 
capacity requirements. In the world of C4ISR, for example, we have 
already seen how command-and-control upgrades to our legacy cutters 
serve as a force multiplier to generate impressive dividends in 
operational effectiveness and efficiency. Armed with earlier, more 
accurate, and continuously streamed intelligence and operational data 
to maintain a common operating picture, commanders can employ their 
assets far more effectively than in the past. Our modeling and 
simulation studies predict a robust return on investment by revising 
the Deepwater plan to meet post-9/11 requirements.
    With the continued strong support of the Department of Homeland 
Security (DHS), the Administration, and Congress we are positioned to 
play an even greater role in reducing the future risk of a terrorist 
event against the homeland. During the past two years, we have 
modernized select legacy assets to operate more effectively until 
replaced by Deepwater assets. Now we have established requirements for 
improved capabilities on converted or newer Deepwater platforms that 
are necessary for the Coast Guard to perform its full range of post-9/
11 missions.

Conclusion
    On 9/10/01, our primary maritime focus was on the safe and 
efficient use of America's waterways. Since 9/11, we have made great 
progress in securing America's waterways, while continuing to 
facilitate the safe and efficient flow of commerce. There is no doubt 
that work remains, but there is also no doubt that we continue to 
improve maritime homeland security each and every day--thanks in large 
part to the continued strong support of the Administration and 
Congress.
    The Coast Guard's 2006 Budget continues that support, proposing 
budget authority of $8.15 billion, an eleven percent increase over 2005 
comparable discretionary funding. The budget provides the resources 
necessary to continue recapitalizing the Coast Guard's aging cutters, 
boats, aircraft, and supporting infrastructure, while building out 
maritime safety and security capabilities essential to meeting present 
and future mission demands. In addition, the Administration's proposed 
Coast Guard Authorization Act for 2005 contains provisions that provide 
the Coast Guard with important new authorities, as well as expansions 
and clarifications of existing authorities.
    Our country faces many challenges in today's dangerous world. In 
the maritime arena the Coast Guard strives every day to be the Shield 
of Freedom, to protect our homeland and to continue to perform our 
traditional missions in the outstanding manner that the men and women 
of the Coast Guard have performed all of their many missions for over 
200 years.
    By supporting enactment of President's proposed budget levels and 
legislative changes, the Committee will better equip today's Coast 
Guard to meet our current and future maritime safety and security 
challenges. Thank you for the opportunity to testify before you today. 
I will be happy to answer any questions you may have.

    Mr. Lungren. Thank you very much, Admiral. We will be 
recognizing members for 5 minutes each for questions, and I 
will start that off by, first, reflecting on the fact that the 
Coast Guard personnel numbers were down prior to 9/11, you 
folks suffered as much of a cutback as anybody in the Federal 
establishment. They are back up now, almost the numbers, to 
where they were prior to that cutback.
    Your budget has been significantly increased since the mid 
1990s to the present time, I guess 3.05 billion in 1995 to 6.52 
billion in 2005. I would assume that much of that reflects the 
increased commitment or the new compliment to Homeland 
Security. Can you tell me what percentage or what portion of 
those budget increases have been divided between Homeland 
Security and nonHomeland Security missions of the Coast Guard?
    Admiral Collins. If you look at our budget presentation, I 
think that breaks out about 45 to 46 percent of our total 
budget base is officially described as Homeland Security 
missions, as defined in the Homeland Security Act. Of course, 
most of the growth that you refer to, Mr. Chairman, has been 
allocated to capability and capacity issues within those 
Homeland Security missions.
     Several examples, we built up, as I mentioned, 13 maritime 
safety and security teams that are placed around the country, 
75-person team is augmented with reservists up to 100. They are 
sort of our special ops team that can provide enhanced security 
in and around a port environment. That is a considerable--ate 
up a considerable portion of that increase.
    We have added 15 coastal patrol boats to our fleet, is 
another example in the direct Homeland Security and maritime 
security assets. Just two examples of where that money has been 
allocated.
    I should note that we have also not neglected our other 
traditional missions as well. We have invested in those 
multimission systems, both in people and in systems that will 
enhance our systems across the board. Case in point. If you 
look from 2000, 2001 to the present, we have added almost 1,000 
people to our search and rescue structure in our Coast Guard 
between our command centers and our stations to deal with 
increased operational tempo.
    And the Rescue 21, which is a VH/FM command and control 
distress and calling system, digital-based that we are building 
around a country is largely focused on our search and rescue 
mission but is multimission mission. It is a blue force 
tracker. It is a command and control system that is under the 
distress calling system. This will service our missions across 
the board.
    Mr. Lungren. Last week I had a chance to go out and visit 
the Pacific Command in the 11th District in California and had 
the opportunity to look at some of the intelligence operations 
you have out there.
    My question is this: We have looked at, in other 
committees, the difficulty, for instance, the FBI is having in 
transforming itself and both attracting proper intelligence but 
more importantly analyzing proper intelligence. Your people 
presented to me the argument, you presented the argument that 
you do a far better job on intelligence than you did before, 
that there is more coordination.
    How do we judge that other than the fact that we are 
spending more money at it? At least in my observation, the FBI 
has been--they are certainly not doing a very good job in terms 
of analyzing things. They have got sort of a disrespect for 
analysts, because they are not agents, and so forth.
    What kind of significance do you put to the intelligence 
operations you have? What benchmarks would you suggest we would 
look at to see that you are actually doing a better job, not 
just have more money, and now tell us that you are talking to 
the other elements within DHS and DOD and local law 
enforcement, for instance?
    Admiral Collins. Mr. Chairman, that is a wonderful 
question. It is a very difficult question. The metrics are 
hard, it is like asking what the deterrence impact is of a 
patrolling police officer on the street and trying to quantify 
those benefits. So it is absolutely the right question. The 
answer to it is exceedingly difficult.
    You are right. We have added, almost doubled our intel 
establishment. We have changed it organizationally. It is a 
direct report to me. It is not buried down in our operational 
directorate. We have added a three-tier structure. We have 
added these field intelligence support teams, area fusion 
centers east and west, Pacific and Atlantic, and then co-
located with the Navy at Suitland, we have a Navy intelligence 
center located with ONI, which is a terrific partnership for 
us.
    We are in the process of building out structured competency 
in this area. I can give you a classified briefing on a couple 
of real high connect-the-dots payoff, connect-the-dot things 
that our analysts have done that no one else saw. I would be 
glad to give you a classified briefing on that. Really some 
terrific, terrific, analytical work. We did it right because we 
have a systems view of the maritime. We know the safety part, 
maritime, environmental part, domestic part, and we are able to 
tie the dots together. That is one measure, analytical success.
    The second is, not only have information developed, flowing 
from the bottom up and feeding into the total intel picture, 
but just as important from my perspective, it is giving 
tactical information to our operational commanders every day. 
That is the real payoff, the real payoffs of the FITs, the 
field intelligence teams.
    Every day, they are assimilating information, the vessel 
arrival of information that comes in, vetting that information, 
up through ONI and Suitland and back, and taking that 
information, fusing it and giving the operational commander 
information on which he can say, well, where do I put my 
boarding team today. What vessels do I escort today, where do I 
put my inspection resources. It is all based on risk.
    But it has to be done on the fusion of information, the 
best information you have to allow you to make those kinds of 
decisions. That is the real payoff, I think, that is the real 
payoff. One of the elements of success is that they are joint 
multiagency entities, as these field intelligence support 
teams, other agencies that are coming, State and local, 
willingly and eagerly to participate in this, because they see 
a value proposition in the information that is brought together 
within those structures.
    Mr. Lungren. Thank you, Admiral. My time is up. The 
gentlelady from California.
    Ms. Sanchez. Thank you, Mr. Chairman, again, thank you, 
Admiral. The GAO issued a report in 2004 on the automatic 
identification system, which, as you know, is the short-range 
tracking system, and stated that currently the Coast Guard 
could only monitor vessels in 10 ports with the existing Vessel 
Traffic Services, or the VTS.
    It would appear to me that if you are going to be doing 
this, you would have to have more ability to monitor ships than 
just in 10 ports. I understand that expanding the AIS coverage 
is not an easy task, and the GAO estimated that it would--a 
national ATS system would be around $150 million.
    Have you thought of how you are going to enlarge that 
capacity? And in particular, because, in having gone to the 
Port of Los Angeles-Long Beach, they have the automatic secure 
Vessel Tracking System. It would seem to me like maybe you 
could work with them and get some more coverage than if it 
wasn't an AIS type of coverage, but something close to it.
    Admiral Collins. Sure.
    Ms. Sanchez. So my question is, how do you plan to expand 
the AIS coverage to all the other ports and major ports and 
would you consider something like that system in partnership?
    Admiral Collins. Great. Terrific question. If I could just 
start from a broad perspective, you are talking about maritime 
domain awareness. How do you get visibility, transparency of 
people, cargo and vessels and activity in the maritime, so you 
can intervene and prevent. You need many systems and subsystems 
to do that. AIS is a great system and it has great potential. 
It is one system.
    There is, if you add them all, and you get a fused, fused 
multiple systems that will give you this kind of picture, it 
sensors its reporting requirements, its procedures. It is all 
intelligence and bringing all that together to give you that 
kind of transparency. So, low light level TV in a port is a 
great maritime domain awareness sensor.
    AIS is a very important sensor. I would submit our 
Deepwater system that we are building is really an MDA sensor 
system. So it is how do you bring all of these systems 
together, fuse it and have a good common picture that you can 
share.
    AIS is an important part of that. We have it started off in 
phases, the first phase was to implement all our vessel 
tracking systems with AIS. We have done that. We have done the 
nine systems.
    Now we are building out. We have a multiyear plan to build 
out nationally to have coverage around entire coastal areas. We 
are looking at efficient ways to do it. Partnering as 
mentioned, as suggested, is one of those, to give you an 
example of the partnering. Instead of building additional 
structures to hang the AIS transponders off, for instance, 
along our coast, we have partnered with NOAA in putting them 
on--in installing them on NOAA weather buoys as a source. In 
the Gulf, we are partnering with the petroleum industries to 
hang them off oil platforms that cover our entire gulf. There 
are 3400 oil platforms in the Gulf of Mexico.
    So we are looking--and we don't want to build separate 
dedicated towers and things like that to AIS, so we are hanging 
some of these off our Rescue 21 tower infrastructure that is 
going on. We are looking at satellite-based AIS systems.
    So many, many different ways to track and sensor, putting 
those all together, and that will be included in our plan to 
hit the streets this summer, knock on wood, on a national plan 
to achieve maritime domain awareness. That is an interagency 
effort, a national effort that we have locked the whole team up 
for 6 months, shoved pizzas under the door, and they have been 
working real hard, 7 days a week to develop this plan. It is 
interagency in scope, and they will lay out how all these 
things intersect to give us the kind of transparency of the 
maritime we need.
    Ms. Sanchez. The MTSA requires a long-range Vessel Tracking 
System. How long do you think before really how that plan is in 
place?
    Admiral Collins. That is one of the things, we have been 
activists, I would describe ourselves, in the International 
Maritime Organization, driving security standards through the 
word, literally, through that body, I think, with a great deal 
of success. Our next step, and we got short-range AIS 
requirement is the function of the Solis amendments and ISBS 
code that we moved through IMO several years ago.
    The next step is long-range identification and tracking. We 
have an effort underway right now at IMO to develop 
international standards for carriage requirements for long-
range tracking out to 2,000 miles, both to the flag State, the 
coastal State and the port State that would monitor this 
system. It is working through that body as we speak. We have 
been successful at getting two special intercessional work 
groups sponsored by the Secretary General of IMO. I have his 
personal commitment for the long-range identification tracking.
    They are paying for and sponsoring special intercessional 
working groups to move this along. We hopefully will get those 
standards codified, documented, and agreed to by the key 
countries so that there will be a stamp of approval next 
spring. That is the next--the Marine Safety Committee is the 
committee in IMO that is dealing with this. So we are working 
very hard to deliver the bacon when it comes to long-range 
innovation and tracking, and I think we have made progress.
    Ms. Sanchez. Thank you very much.
    Mr. Lungren. The gentlelady's time has expired.
    The gentleman from California, Mr. Cox, is recognized for 5 
minutes.
    Mr. Cox. Mr. Chairman, I ask unanimous consent to exchange 
my place in the order of questioning, with the gentleman from 
Alaska.
    Mr. Lungren. Without objection, so ordered.
    Mr. Young. I thank the chairman--both the chairmen for that 
courtesy. My question will be very short. You mentioned about 
the original mission. That is my dear dream about the Coast 
Guard. Do you have another subcommander or commandant that 
handles that mission, oil spill pollution, navigational 
purposes, search and rescue, or--I am worried, Commandant, more 
than anything else? I listen to your testimony, you are doing 
very well, but it seems to be focused only on security. I have 
another role, that original mission.
    Who decides the personnel count, the ships, everything that 
is needed, and I am being very parochial, I have more coastline 
in all the United States together and half the world and great 
involvement. I don't want to see the mission diminished. Who is 
handling that for you?
    Admiral Collins. Sir, we have, of course, our operation, we 
have an operation directorate and a marine safety directorate. 
Two separate flag officers in our headquarters. The marine 
safety directorate deals with port security port and coastal 
security issues, carrier security, large-capacity cruise ship 
security and the like, and oversees the compliance associated 
with the Maritime Transportation Security Act.
    The Office of Operations, the admiral in charge of that 
office oversees, all our ships, and patrol boats and the 
utilization of them, the allocation of them and the policy 
associated with them, the counterdrug operation and the like.
    Mr. Young. Do you have any plans in the future that you 
know of that would drop personnel or ships in Alaska?
    Admiral Collins. Of stopping?
    Mr. Young. No, dropping or diminishing.
    Admiral Collins. Absolutely not, sir.
    Mr. Young. I wanted that on the record. Thank you, Mr. 
Chairman.
    Secondly, I have one interest, and I am going to make, I 
hope, a constructive suggestion, again parochial. I am a 
mariner, I am a licensed mariner, although you say I am now 
honorary, but I am still licensed. And one of your 
recommendations is the proposed revision of Merchant Marine 
documentation.
    I would suggest respectfully that whoever is helping you 
write that communicate with me very closely. Because what 
concerns me the most is that in the last paragraph it says the 
proposals, the preparedness, it says that there shall be an 
ability to appeal any type of decision made by the Coast Guard. 
Who would you appeal to? The Coast Guard?
    Admiral Collins. We have hearing offices.
    Mr. Young. With the Coast Guard?
    Admiral Collins. That judges--.
    Mr. Young. My point is I want to suggest, and hopefully I 
will do with this my other committee, because I am protecting 
the existing Mariners that are documented, that are making 
their living out of the Coast Guard, I say blessing, on 
Merchant Marine ships that are Jones Act in our Nation. Now to 
have them come under scrutiny other than security. This is 
about security, and have you not allow them and the ability to 
appeal to me is unfair. So I want to make sure that you 
understand that.
    Admiral Collins. Yes, we will work closely with you, sir, 
to make sure that that is addressed.
    Mr. Young. I want to make sure I get my license back. Go 
ahead.
    Admiral Collins. That whole issue of credentialing and 
documentation does need an overhaul. That is the point. We need 
to make it more effective, more efficient, more customer-
oriented for the mariner. That whole realignment of that is to 
that end. We will make sure that the appeals process and the 
hearing process is fair and addresses your concerns.
    Mr. Young. Thank you, Admiral. Thank you, Mr. Chairman, for 
your time.
    Mr. Lungren. The Chair recognizes the gentleman from 
Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chair and Mr. 
Admiral. I appreciate your testimony.
    We are about 4,000 men short, based upon reports that I 
read from a manpower standpoint. Do you agree with that? Are 
those numbers just--.
    Admiral Collins. I haven't heard that. I haven't seen that 
report. I don't know which report you are referring to, sir. We 
have grown by 12.5 percent since 2001. That is pretty 
significant in the history of our service, in terms of growth 
over that similar period of time. I think it has been measured 
growth. I think it would be difficult to grow faster during 
that timeframe. I mean, you can grow good or you can grow not 
so good. That is not being able to absorb and acculturate that 
workforce and bring them up to speed and so forth.
    So I think at the right pace we are on that has been 
reflected in the budget since 2001. I am pleased with the 
support that we have gotten through the administration and 
Congress on building up that 12.5 percent.
    Mr. Thompson. Well, just for the record, GAO more or less 
indicated that you were 4,000 short. Obviously they had 
produced the numbers based on their analysis of, I guess, Coast 
Guard material. So maybe we need to go back to them and suggest 
that their numbers might be a little off.
    But nonetheless, is it your testimony today that we are at 
a number that you are comfortable with that we don't need to 
increase our numbers with the Guard or anything like that?
    Admiral Collins. I think there is, you know, I probably 
deal with that budget 1 year at a time. You look at the merits 
of the initiatives in the budget, and every budget gets 
configured based upon the, you know, the puts and the takes and 
the priorities in a given budget year, as you know very well, 
sir. I think the--.
    Mr. Thompson. Well, let me put it another way. If you had 
your druthers, would you like to have some more people?
    Admiral Collins. Well, let me maybe answer it this way. The 
first year--we had the opportunity this year to submit an 
unfunded priorities list as directed by Congress in the 2005 
Act. We submitted that list. What that list is, both dollars 
and people. It said if I had the next person or the next 
dollar, this is where I would put them.
    So that document is on the record, on the Hill. It shows 
you where we think the next dollar or the next person would be 
placed if I had it at my disposal, and I think they are very 
significant item, let me leave it that way. I think they are 
important items that have to do with inland rivers. That deal 
with security.
    Mr. Thompson. Well, that is my next question.
    Admiral Collins. That item is on the unfunded priority 
list. It has to do with the inland river vessel movement 
center. It tracks dangerous cargos that move in our inland 
rivers. They are very hazardous, very dangerous. If a terrorist 
did something bad to those in a high-density area, and we have 
defined about 20 high-density areas along the river we have to 
worry about, we need to track those. Right now, we are doing it 
by hook or by crook with a reserve force that we cobbled 
together.
    We need to make that more permanent, and we are a little 
more sophisticated in terms of technology. That is why that 
line item is there. So I think that is the best way to answer 
your question, sir, that we do have a list of unfunded 
priorities that are meaningful, or substantial, could add 
value.
    Mr. Thompson. I think, for the sake of the committee, if 
you could just provide each member of that committee, of the 
committee, that information. It would be helpful to us again.
    You talked about the inland waterway security in the 
center. So you are also saying that if we chose to give you the 
money, it would be an additional asset that you think the Coast 
Guard could do a better job in monitoring the inland waterways?
    Admiral Collins. Absolutely. That particular item, as I 
said, is made up of reservists that we brought on. Their 
service ends the end of this fiscal year. We are going to have 
to hunt down other reservists if they want to keep that going. 
Our game plan would be to put active duty permit people there 
along with some contracted people, and given the proper 
information technology systems to track those barges and river 
traffic efficiently.
    Mr. Thompson. Thank you.
    Mr. Lungren. The time of the gentleman has expired. The 
time of the gentleman from California who, I guess, wants to 
reclaim his time now.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Lungren. Recognized for 5 minutes.
    Mr. Cox. Admiral, on May 31st, the Coast Guard submitted 
your revised Deepwater implementation plan to the Congress. I 
want to read from it. Because if I didn't identify the source, 
this would sound like a pretty trenchant criticism of the Coast 
Guard. Today's Coast Guard outfitted with assets defined for 
the threat environment of 30 to 40 years ago lacks the maritime 
security and network centric capabilities essential for 
operational effectiveness.
    That is really an indictment of where we stand. I would 
like to know how the new capabilities that you are seeking to 
achieve address the need for interoperability, because that is 
one of the things that is referenced in our opening statement.
    It is also one of the things as I mentioned in my opening 
statement. Last year we held a hearing to examine the maritime 
operations of the Department, and we were focused on whether 
Coast Guard, aircraft and vessels are yet capable to engage in 
secure communication with other DHS assets, such as border 
patrol boats. Does this plan address that? And what is the 
answer to that question? Can we do that today?
    Admiral Collins. The current preDeepwater systems are 
really independent systems, they are not network based. What I 
mean by that tied together with real data; real-time data 
capability, exchanged between the component parts.
    To steal a term out of the Department of Defense, what we 
are building is a network centric system with Deepwater with 
advanced communication systems, advanced census systems, 
advanced command and control systems that tie the network 
together. What it does is leverages your capability to have 
maritime domain awareness to understand your environment and 
act on it and have real-time information through what is--the 
buzz word is common operating picture.
    Everyone has the fused operational picture that is moved 
instantaneously that leverages each asset and increasing the 
productivity of the asset. That is what we are building with 
Deepwater. It is a system of ships, fixed wing, helicopters and 
boats tied together in a robust way that has transparency of 
its operating area. It allows you to push the borders out and 
transparency along the threat axis and act on it. It will not 
only help Homeland Security issues in the courts in the like, 
but migrant interdiction, counterdrug interdiction, search and 
rescue mission reinforcement. So it is all mission system that 
will enhance our ability to act in the maritime.
    [Insert for the Record. See page 46.]
    Mr. Cox. I love the term ``network centric,'' and I 
completely agree that it is an object much to be desired that 
we have a common operational picture. My question remains, do 
we have it yet at least to the extent that we can communicate 
with a border patrol boat.
    Admiral Collins. Yes, we do. We have it.
    Mr. Cox. By communicate, can we communicate securely, 
because intelligence sharing is a big piece of this. Do we have 
interoperable secure communications now between those Coast 
Guard aircraft and border patrol boats?
    Admiral Collins. We have partial capability in that regard. 
Part of the Deepwater program was building replacement assets 
for the current assets over a period of time and enhancing 
existing legacy systems while we transition.
    So, for instance, if you look at our medium endurance 
cutters, our high endurance cutters, part of the investment of 
Deepwater has been to secure communications on those platforms, 
they all have secure communications now. Even the legacy 
system. So we have enhanced the current system and all that 
will be in the new system. We are working very, very hard to 
insure--and that is part of the rebase lining of Deepwater--is 
to insure that they are all post-9/11 interoperable systems, 
that our Rescue 21 systems are interoperable with our Deepwater 
system, that is interoperable with the AIS system that can talk 
to the border patrol that can talk to the local police. That is 
all embedded in the requirements definition that we have 
baselined.
    Mr. Cox. Thank you, Admiral. Obviously, the sooner the 
better on that. I am delighted we are heading in that 
direction. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you. The gentleman from Washington, Mr. 
Dicks, is recognized for 5 minutes.
    Mr. Dicks. Thank you. Thank you, Commandant. We are glad to 
have you here. Another maritime State, Washington State, where 
the Coast Guard plays a great role out there. We appreciate it. 
The Maritime Transportation Security Act requires that security 
plans be developed for the Nation's port facilities in U.S. 
flag vessels.
    According to the Coast Guard, 3,000 facilities and 9,000 
vessels subject to the regulations have approved plans in 
place. What does the approval process entail?
    Admiral Collins. They have submitted, of course. This 
played out over the last year, 2 years, they submitted their 
plan to us. We evaluated the plan that it had certain 
prescribed things that it had to address. Access control, 
perimeter security and the like, so there are some basic 
ingredients as we bake the cake, so to speak.
    Mr. Dicks. So it includes physical verification and review 
of the security plan by the captain of the port?
    Admiral Collins. Yes.
    Mr. Dicks. Good. Now that the plans have been approved, how 
is the Coast Guard going to insure that facilities and vessels 
are in compliance with their plans and maintain their 
compliance?
    Admiral Collins. That we will inspect those facilities 
annually and--also, as part of MTSA, as you know, sir, that as 
is required is an exercise regime, it is also required not to 
exceed 18 months. So there is exercise of regimes that have to 
take place to exercise the plan. That is a wonderful way to 
have visibility into how prepared they are.
    In addition, we are starting with this 40-tabletop-
exercises plan starting this summer, across the key ports and 
areas that exercise these plans.
    Mr. Dicks. Now, isn't it true that there still is a 
question about the financing of port security? That the ports 
themselves have said that the Federal Government should be 
financing this and the Federal Government has been saying well, 
no, it should be the shippers and the ports doing it privately. 
But isn't that still a problem?
    Admiral Collins. It is still an issue, I think it may be 
debated forever, but it is a key issue. There are costs to 
building out the security plans. Now, the important part is 
that you have a standard set of regulations that are applicable 
to everyone, so there is not an unlevel playing field. It would 
be really bad if we had one State that had one set of standards 
and another place with another set of standards and so forth, 
and that would be an unequal playing field. One of the national 
standards is a level playing field of standards.
    Mr. Dicks. Wasn't it true that the Coast Guard said to 
fully implement the plan to do all the port security this would 
cost billions of dollars, which we have not appropriated, and 
the money hasn't been raised at the local level. There has got 
to be a huge gap in the effectiveness of these plans that have 
been put down on a piece of paper. That doesn't mean they have 
been implemented and the work done to secure these ports; isn't 
that correct?
    Admiral Collins. There has been, of course, I think five 
rounds of grants to date; $560 million have been distributed 
around the country. There is another round this year. I think 
it closes out, the applications close out the end of this month 
or early July for another 150 million, that pushes it close to 
$700 million through 2005.
    Mr. Dicks. You had some numbers that you presented to the 
Congress, as I recall, that were in the billions of dollars 
that were needed to implement port security, and we are nowhere 
near that. In many of these cases, Congress had to add the 
money to the budget. It wasn't even in the President's budget; 
isn't that correct?
    Admiral Collins. Yes, sir. There was in the cost/benefit 
analysis that is required as part of the regulatory effort, 
there was an estimate of several billions of dollars.
    Mr. Dicks. As I understand, 5.4 billion over 10 years for 
port facilities?
    Admiral Collins. Yes, sir.
    Mr. Dicks. We are at $700 million. And most of that has 
been put in by the Congress. So I still worry about this. I 
mean I am a big supporter of the Coast Guard, but I worry 
whether we have done enough on port security. And it seems to 
me that with a gap of--in this case, would be $4.7 billion that 
hasn't--work that hasn't been done. We still have a lot to do 
here in this area, don't you agree with that?
    Admiral Collins. Yes, sir. I think it is going to be built 
out over time. And there are alternative security techniques 
and provisions that can be included into the plan to have 
equivalent levels of security while the final solution is built 
up. That is built into the plan review and the system as we go 
forward. It boils down to, sir, how do you distribute between 
what public expense--a private expense and the public expense, 
whether it is State, local, and Federal, and how that gets 
distributed. There is no magic formula that has been 
adjudicated that sets those boundary conditions.
    Mr. Dicks. Thank you. My time has expired.
    Mr. Lungren. Thank the gentleman. Mr. Linder is recognized.
    Mr. Linder. Thank you, Mr. Chairman. Admiral, welcome. How 
many personnel do you have?
    Admiral Collins. If you count the civilian personnel, which 
you should, they are a great part of our work force, around 
47,000 individuals.
    Mr. Linder. How many reservists are on duty?
    Admiral Collins. We have a selective Reserve of 8,100. We 
currently have about between--voluntarily recalled and 
involuntarily recalled--around 1,500 as we sit here today on 
duty.
    Mr. Linder. How many reservists do you have entirely, 
including those that are not on full-time duty?
    Admiral Collins. Eighty-one hundred selective Reserve.
    Mr. Linder. All of your personnel trained in all of your 
various missions?
    Admiral Collins. Not everyone knows every mission. We have 
multi-mission ships and multi-mission planes. A ship could be 
doing a search and rescue mission in the morning and could be 
interdicting drugs in the afternoon, which is frequently the 
case, by the way. The competencies necessary to do a variety of 
missions that are built into that platform in the amount of 
people--.
    Mr. Linder. Platform-related essentially, yes?
    Where do you fit in the intelligence loop? Quite a bit of 
discussion about intelligence and the substantial ability to 
change it. Where do you fit in that loop?
    Admiral Collins. We are, of course, we are a member of the 
foreign intel community. That was an act of Congress right 
after 9/11 that saw that need and made us a part of that 
community. We are--we have intel analysts. We are a form of 
collectors in the foreign intel community. Throughout our 
department, we obviously have a relationship with the IAIP, 
Intelligence Analysis and Infrastructure Protection under the 
Secretariat.
    We are co-located--and obviously responsible to the 
Secretary through them. We are co-located with the Office of 
Naval Intelligence in Suitland, a national intelligence entity. 
And as the current--the HSPD 13 work that I referenced earlier 
is a family of plans. There is an over--umbrella, national 
maritime security plan and then eight subordinate plans, one of 
which is integrated maritime intelligence.
    In that plan that is evolving, it defines the role and the 
organizational positioning particularly with the new entity. 
And how we see it is we have become the maritime plug-in up the 
chain in terms of focus integrated maritime intelligence.
    Mr. Linder. How much of that intelligence comes from 
civilian both commercial and pleasure boats? I suspect there 
are a million of them.
    Admiral Collins. Every one is sensor is our approach. We 
have HUMINT teams. We have these 30 field intelligence support 
teams that I mentioned earlier. We have started a program 
called America's Waterway Watch, which is drawing upon marinas 
and boatmen around the country, orchestrated and promoted by 
our Coast Guard Auxillary, which is our volunteer arm of 45,000 
people that help us in this neighborhood watch of the waterway 
basically, and it is very, very effective. It is another 
maritime domain awareness sensor, if you will, to give us 
information so we can put this all together. So--.
    Mr. Linder. Is it your sense that people are paying more 
attention since 9/11?
    Admiral Collins. Absolutely. We get the call, the report 
that there is a perceived increased--someone surveilling or 
taking a picture of this ferry, and looks strange, and we are 
worried about him or her. So you get that kind of input all the 
time. You run those things through the ground and collect the 
information and do the field intelligence report and all those 
things. There is a consciousness around our ports and waterways 
that these are precious things, these ports and waterways, and 
people want to protect them. The best way is to have people, 
local folks that know what is supposed to happen in a waterway 
and what is not--what is an aberration and what is not, and 
they can see that aberration and report in. Some things like 
America's Waterway Watch is an important initiative in that 
regard.
    Mr. Lungren. The gentleman from Oregon is recognized for 5 
minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Foreign port security 
assessments, I am disturbed to see--and I am certain this is a 
personnel or funding issue--but only 26 of your planned 135 
assessments have been done at this point in time?
    Admiral Collins. Yes, sir. I think it is pretty good, sir, 
from my perspective. We have, of course, had to stand up that 
whole program. We had to staff that whole program and get an 
inspection protocol accomplished. We got adopted by, approved 
by, and embraced by IMO. So that same standard approach will be 
used by others around the world. And we have done 26 already 
and we are on tap to do a whole bunch this summer. So I think 
as I recall the mandate, sir, if I got it right, it was 3 years 
to have it all done. And I think we are going to meet that.
    Mr. DeFazio. Of those 26 that have been completed, have you 
identified problems?
    Admiral Collins. There were two countries, small African 
countries that were determined to be noncompliant. There were 
five countries--and don't ask me to name them because I don't 
remember them off the top of my head--I will get you the 
information. There are five countries that have not reported 
compliance. Under the ISPS code, flag states have to report 
compliance and that they have met the port standards. There are 
five countries that have not reported compliant. And two we 
found on inspection.

                        Inserted for the Record

    Currently five countries have not reported compliance as required 
by the ISPS Code. (Democratic Republic of the Congo, Guinea-Bissau, 
Liberia, Mauritania, and Nauru). Conditions of Entry have been imposed 
on vessels arriving from those countries. These Conditions of Entry 
require vessels to take additional security precautions while in ports 
in the foreign countries and when in the U.S. In addition these vessels 
receive intense scrutiny when they arrive in the U.S. The Coast Guard 
consulted with our interagency partners to insure all other agency and 
foreign policy considerations are taken into account.

    What we do with that, we can deny entry for those vessels. 
And what we have chosen to do with the five that have not 
reported compliant is impose additional restrictions on any 
vessel coming from those ports to our country. They have had to 
maintain a higher security posture while they were in that 
country and other documentation in order--and there are 
mandatory offshore inspections before they come into our 
country. We have ratcheted the security net up based upon the 
status of the security in that foreign port.
    Mr. DeFazio. So for ports that are noncompliant, and any 
ships that have transited those ports, before coming to the 
U.S., you are doing mandatory inspections?
    Admiral Collins. Yes, sir.
    Mr. DeFazio. The issue of vessel ownership, I know we have 
talked about this before, I am just curious where we are in 
terms of transparency, penetrating the veil of ownership. Osama 
bin Laden may well personally own vessels that are transiting 
the United States. Where are we at on that?
    Admiral Collins. Part of the ISPS code in the Solis 
amendments that went through IMO was a requirement for a 
synopsis record on the bridge that required a full history of 
that vessel, ownership.
    Mr. DeFazio. Only down to the agent level or the law firm 
or whatever. It does not get to actual ownership; is that 
correct? We don't have anything that requires that we know what 
individuals or corporations or entities own it?
    Admiral Collins. I can give you a classified brief on this. 
There are a number of intelligence avenues to get that 
information. And in many regards we do have that information. 
There was a motor vessel voyager that we tracked I think very 
successfully over the last--about a month ago--that had 
ownership issues, flag state issues, and a whole bunch of other 
risk factors that we vetted with ONI at Suitland and with our 
foreign partners and identified it, located it, tracked it with 
national assets, boarded it 800 miles off shore.
    So we are active from all sources to get the information we 
need to assess risk. And we err on the side of being 
conservative. And if there is an element of risk we are going 
to be all over that vessel.
    I think there are some good examples. And that was an 
interagency coordinated effort, by the way. And this committee 
is interested in interagency coordination. I think it is 
getting better and better and better in the sharing of 
information. Customs has a tracking targeting center. We have 
Coast Guard people with permanent liaisons there. They have 
folks in our National Maritime Intelligence Center and Vessel 
Tracking Center that we have at Suitland, and we are sharing 
all the information back and forth all the time.
    So I am pretty pleased--not there yet, we have a way to 
go--but I am pretty pleased where we are.
    Mr. DeFazio. Then on the questions raised by the Ranking 
Member and I believe by the Chairman, if I could quickly, Mr. 
Chairman, on the long-range tracking, aren't there a number of 
maritime cargo companies that actually have installed on their 
vessels commercial systems so they know where that ship is 
real-time all the time?
    Admiral Collins. Yes, sir. And we have a couple of pilot 
programs going. One in Alaska. With ORBCOMM, we have a 
satellite project going. We are looking at various techniques 
and lining them up to see what we could use and how we can 
derive that as a solid long-range identification tracking 
system. That is part of our project is to look at the options 
and do demonstration projects, kick the tires, see them in 
action, and then pick the best solution.
    Mr. DeFazio. Thank you, Admiral.
    Mr. Lungren. You mentioned Alaska and the gentleman from 
Alaska was not even here. I am sure he will hear about that.
    Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Admiral a few questions that go into general policy and 
strategy, I am really shocked by the record of the HH-65 
helicopter. You brought that to our attention in your testimony 
in terms of the amount of incidents and the amount of mishaps; 
500,000 flight hours, 329 mishaps. That is up from 63 mishaps. 
And as you know, the FAA says what is acceptable. The standard 
is 1 in 100,000. Now that is not close; that is bordering on 
tragic.
    Could you respond to that, please?
    Admiral Collins. I couldn't agree with you more, sir. That 
is why we have such a priority and such an urgency with our 
reengineering effort. In the meantime, we are managing the risk 
through operational restrictions on the aircraft commensurate 
with the current condition and reliability; and we are building 
out, replacing that engine absolutely as fast as we possibly 
can do it. We have got 12 already installed, another batch in 
the making. And we are putting them in as fast as the 
manufacturer can build them and spending over 350 million doing 
it. So this is a huge priority. It is a mainstream asset for 
us. And we have--it is not only the engine, it is the engine we 
are replacing, the fuel control system and the gear box, all 
three in that aircraft.
    If you go to the air stations where that aircraft has now 
been reengined, there are a lot of aviators walking around with 
their smiley faces on, because it is a much more capable 
aircraft.
    Mr. Pascrell. Some of those things we are addressing in the 
2006 budget. But this is something that needs immediate 
attention by all of us. This is totally unacceptable. I think 
you would agree with that.
    Admiral Collins. Absolutely.
    Mr. Pascrell. My second question is this: New York Harbor. 
We were up there just the other day, Homeland Security 
Committee. And I want you to give me a brief assessment of the 
New York Harbor in terms of security and protection of this 
huge, huge harbor.
    Admiral Collins. It is a very complex harbor and a very 
valuable harbor. It has significant traffic in and out and, of 
course, a lot of it is bulk liquid traffic. It comes in to 
Bayonne and Arthur Kill area. There are vulnerable assets there 
in terms of bridges and structures of national significance.
    Mr. Pascrell. How many people are assigned there?
    Admiral Collins. I have to get you that for the record. We 
have the biggest Coast Guard station and our service is located 
there, the most boats and the most people.

                        Inserted for the Record

    There are 58 members assigned to Coast Guard Station New York.

    Mr. Pascrell. That is functioning totally? That facility is 
functioning?
    Admiral Collins. It is on Staten Island and has the most 
boats and most people of any station in the Coast Guard. We 
have a major capital port function there, office in charge of 
reinspection there, sector--sector New York, and we have the 
capacity to augment. For example, obviously, New York is the 
center of every orange condition. If you have an orange alert 
or a national convention that is there, Republican in this 
case, if you have the national convention there, then the 
security goes up and we roll assets in and augment that. And we 
did that at the national convention. We did that for the other 
security conditions. So it is a dynamic process. We allocate 
resources. We have the basic core level of resources there and 
we increase based on risk. We have a maritime safety and 
security team there.
    Mr. Pascrell. I want to make one other point, Mr. Chairman 
and that is when we started our first hearings a few years ago 
and we looked at the Coast Guard, we were very concerned that 
the process of interdiction of drugs would take a back seat. I 
know that you are dealing with priorities. When everything is a 
priority, nothing is a priority. But I believe the members on 
both sides of the aisle feel very strongly about the 
interdiction process continuing and being successful.
    We have a homeland security problem with the infiltration 
of drugs in our country. And let us not kid ourselves. The 
terror on our streets is something that is not written about 
too much lately. The Coast Guard--we have to rely on the Coast 
Guard primarily to continue. This is homeland security and it 
may not be somebody bringing in a bomb. To me, there is no 
difference in that bomb and the drugs that are killing adults 
as well as kids. And I am glad and I know you are trying to 
make that effort more substantial. And I appreciate it and I 
salute your entire Coast Guard.
    But I want you to know, we feel very, very serious about 
that issue. And I hope, Mr. Chairman, that we can look into 
that specifically down the road.
    Mr. Lungren. I thank the gentleman. I might say when I was 
out there for my briefing with Pacific Command, I got no 
suggestion that there has been any slacking on the interdiction 
efforts with respect to drugs.
    Admiral Collins. Sir, in fact, I agree there is nothing 
more homeland ``security-ish'' than counterdrugs, and we have 
continued to put great effort into that. Last year, we had an 
all-time record interdiction year. We seized 241,000 pounds of 
cocaine at sea. Broke the previous record by 100,000 pounds. 
And this year we are ahead of that record-breaking pace. We are 
putting attention to it and I think we are getting great 
results.
    Mr. Lungren. And I would suspect that your increased 
emphasis on intelligence helps in that regard.
    The gentleman from Rhode Island, Mr. Langevin, is 
recognized for 5 minutes.
    Mr. Langevin. Thank you Mr. Chairman. Admiral, thank you 
for being here today and for your testimony. As you know, Rhode 
Island has a long and proud maritime history and we have always 
enjoyed strong ties with the Coast Guard and we appreciate your 
service and everything that the Coast Guard does to keep our 
waterways safe. I am glad to hear today in your testimony you 
were talking about maritime awareness and your focus and your 
concern about that, and I share that concern.
    I have had several opportunities to receive a demonstration 
of a very impressive maritime security system known as Project 
Athena that is located at Raytheon in Portsmouth, Rhode Island. 
Project Athena architecture is the same as that used by NORAD 
for the national air picture; Raytheon solipsys data fusion 
software, which fuses data from multiple sensors over vast 
areas to monitor airborne and surface platforms and has the 
potential to integrate undersea targets of interest as well. I 
have been a strong supporter of Athena's work and its 
capabilities continue to grow and improve each time I have had 
the opportunity to visit the site.
    In addition to the obvious regional interest in protecting 
Narragansett Bay and Port of Providence, I really now see its a 
great potential for national homeland defense application as 
well. I believe that two gentlemen from the Coast Guard, Mr. 
Jeff High and Rear Admiral Joe Nimick recently had a chance to 
see Athena's potential firsthand. I am curious whether you were 
briefed about their visit and what their assessment was and 
whether the Coast Guard has any plans to integrate Project 
Athena's technology and plans to integrate the technology into 
any current or future operation. I know Raytheon is eager to 
contribute to maritime security in any way that is possible, 
and I believe that Athena could be a critical tool for our 
country.
    Admiral Collins. I asked them to visit based on the 
correspondence that you sent me. I have yet to get a downbrief 
from them on their experience and am looking forward to that 
soon and we will crank it into the equation. We are in the 
formative stages of our maritime domain awareness effort and 
our national plan to achieve maritime domain awareness and 
looking at various procedures, systems, and doctrine to attain 
it. And this will be part of the mosaic and some of the options 
we can look at.
    Mr. Langevin. It is an impressive capability. And I hope 
you have the opportunity to go see it for yourself. I know Dr. 
McQueary has been out there and Secretary McHale from homeland 
defense has had the opportunity to personally visit the site 
and it would be an eye opener.
    Another area I want to turn to is basically the ability to 
do the job right now with current resources. One of my primary 
concerns is whether the Coast Guard has the resources to 
adequately perform its new homeland security responsibilities. 
And I know we have been talking about that here today, and one 
area of particular interest to me is the movement of LNG 
tankers through New England ports and waterways and the 
possibility of a proposed expansion of an LNG facility in 
Providence. The Coast Guard officials in my region that I have 
had the opportunity to meet with have indicated to me that 
their staff and vessels are already stretched very thin, 
particularly for LNG traffic, and it would be a great challenge 
to ensure security of additional LNG traffic in the area. I 
know that LNG tankers are only a small part of the Coast 
Guard's homeland security responsibilities, but this anecdote 
really does seem to point to a larger concern about the ability 
of the Coast Guard to perform its security functions with 
existing resources.
    So my question, Admiral, would be whether you feel the 
Coast Guard has sufficient resources to reliably perform the 
requirements that you have been charged with; and, if not, 
whether the authorization levels in H.R. 889 will provide the 
necessary boost or whether more still has to be done to 
adequately enhance the Coast Guard's capability.
    Admiral Collins. The short answer is no. I have talked to 
the commanding officer stationed at Castle Hill on this issue, 
who incidentally just received the National Award for 
Leadership, and one of our very best, and to look at what the 
proper configuration is. In the 2006 budget, there is a line 
item for more people and dollars for boat crews specifically 
for LNG. And so that is the next increment and I hope that will 
get supported with Congress. With that, we will have additional 
boat crews and additional staff to oversee the security 
associated with LNG. That is step number one and that is a good 
step. If that can get supported, we are able to beef up places 
like Narragansett Bay.
    Mr. Lungren. The gentleman's time has expired. The Chair 
would ask unanimous consent that the gentlelady from the Virgin 
Islands, Ms. Christensen, who is a member of the committee but 
not the subcommittee, be allowed to ask questions for 5 
minutes. Without objection, so ordered.
    Mrs. Christensen. Thank you, Mr. Chairman. I would like to 
welcome you, Admiral and thank you for the team that you have 
in Puerto Rico that assists us and the U.S. Virgin Islands. Of 
course they are very stretched. And I noticed that the Coast 
Guard released a report on its current interagency operational 
centers and its plans to create 40 additional centers. And I 
was wondering what plans might we anticipate to have either 
Puerto Rico expanded to be able to reach over to the U.S. 
Virgin Islands where we have almost 200 miles of open borders, 
while they are now mostly in the Mona Passage, or have our own 
center.
    Admiral Collins. Just one point in clarification. These are 
not new centers. We are taking existing centers and converting 
them. So in reshaping them and enhancing them, those are 
existing centers that were part of our creation of sectors 
around the Coast Guard. We are integrating our field structure, 
and along with that, enhancing the existing command and control 
operation centers within those entities. And we are doing that 
around the country. It is called our 2010 project. Sector 
Puerto Rico will be included in that. And exactly what its 
reach will be in terms of sensors and so forth, I don't have at 
my disposal. But there is a project in the Miami area called 
Project Hawkeye that ties together Fort Lauderdale, Miami, and 
Key West with AIS and radar sensors into this new command and 
control center.
    Mrs. Christensen. I hope that in the plans we could get a 
permanent cutter in the Virgin Islands. We don't have one as 
yet.
    In your statement, you talk about a layered defense in 
starting overseas to extend, you know, the defense layer. And I 
was wondering about the operations in the Caribbean in general 
and what your operations are there and how much are the island 
nations in the Caribbean able to support your efforts, because 
we hear from them all of the time that they are really strapped 
and unable--.
    Admiral Collins. Take the Caribbean Basin as a whole, I get 
an operations brief every morning. I look at the force 
structure every morning. If you look at that, you will see an 
international force structure. We have French, British, Dutch, 
the United States, United States Navy, and Coast Guard working 
together in a team in a coordinated way through Joint 
Interagency Task Force south out of Key West. I think it is a 
terrific team and gets wonderful results and it is 
international in scope. And we have Coast Guard law enforcement 
detachments on British ships.
    Mrs. Christensen. I have been on one of the Dutch ships as 
they come into the Virgin Islands. What about the readiness of 
their ports? Have they met the criteria to be approved? Because 
we have a lot of small cargo in between the islands and we have 
had a lot of difficulty either getting those boats in or out.
    Admiral Collins. I will get back to you on the record and 
the detail, but my recollection is that they all have reported 
compliant. And with the 26--and I don't know if Caribbean 
countries are a number among the 26 visits. We have already 
made international visits. But if they have, none have been 
identified as deficient, as not meeting the basic intent of 
those standards.

                        Inserted for the Record

    Twelve Caribbean Island nations trade with the U.S. and are on the 
IPS Program country list: Antigua, Bahamas, Barbados, Cuba, Dominica, 
Dominican Republic, Grenada, Haiti, Jamaica, Saint Lucia, Saint 
Vincent, and Trinidad. All twelve countries reported their compliance 
with the ISPS Code. This report is made to the International Maritime 
Organization (IMO) for SOLAS signatory countries and U.S. Coast Guard 
for non-SOLAS signatory countries. The Coast Guard has visited the 
Bahamas, Dominican Republic, Jamaica and Trinidad as part of our IPS 
Program. Based upon our visits, all four countries have substantially 
implemented the ISPS Code. The remaining countries will be visited 
within the next two years.

    Mrs. Christensen. I see my time is almost up. I want to 
associate myself with the remarks of my colleague from New 
Jersey about the drug interdiction. I notice that you say you 
have done better on search and rescue, which is another area 
that I was very concerned about, because I lost a young man 
from my district with whom I had been very close, who had been 
in the water for 36 hours before he was lost, and his companion 
made it. And I am hoping you will continue your efforts in that 
regard.
    Admiral Collins. That is our bread-and-butter mission for 
us. Anything that is associated with saving a life, whether a 
security issue or safety issue, that is our number one 
priority. We are maintaining our standards and our readiness 
posture for search and rescue. And we will not back off of that 
one inch.
    Mr. Lungren. Admiral, I have a few more questions and I 
want to start another round for those who are here remaining. I 
would like to ask you about the maritime safety and security 
teams. I know you are very proud of them. I know recently you 
have established an enhanced maritime safety and security team 
with the express purpose of providing greater prevention and 
response capabilities for WMD events. It is my understanding 
the Coast Guard has asked the Congress for some clarification 
in legislation to ensure that they can be deployed 
internationally if needed, since current legislation appears to 
restrict MMSTs to domestic operations.
    What is the essential difference between the enhanced 
maritime safety and security teams from the original ones? How 
do they strengthen the maritime security mission? Is there 
additional legislative authority you believe you need in order 
to do your job? And why would you need it with respect to 
international activities as opposed to domestic activity?
    Admiral Collins. Let me start with the difference. The 
enhanced MMST is an MMST on steroids.
    Mr. Lungren. I am from California, so I understand what you 
are talking about.
    Admiral Collins. It is night vision goggles, automatic 
weapons, vertical insertion, carrying detection devices. In the 
Department of Defense parlance, special operations framework, 
national structure for special operations. It is Tier 2 
capability. Tier 1 is that capability that can go and detect 
and render safe a weapon of mass destruction. Tier 2 doesn't 
have the render-safe capability, but has about everything else. 
These are folks that can jump out of the sky in the middle of 
the night and see things with infrared. It is training. It is 
high, high-end offensive capability.
    The MMST is more defensive capability and not the high end. 
The MMST has canine explosive teams and underwater capability 
and the like. We are outfitting three of the MMSTs with nuke-
type detection devices. We will have one on each coast. 
Enhanced--we just have one. The enhanced MMST in Chesapeake 
will have it. New Orleans will have it and San Diego will have 
it. So we will cover gulf, west and east coasts with that. The 
enhanced MMST is a schedule deployer only. It is not 7 by 24 
capable. It is capable--and this has to do with resourcing. It 
can do a schedule of events. It was mobilized for the national 
conventions. Mobilized for the G-8 summit, et cetera. It has 
dedicated helicopters.
    Mr. Lungren. Why international rather than just domestic?
    Admiral Collins. My lawyers say I have all the authority I 
need to deploy currently. It would be nice to have additional 
clarification. That is what my lawyers are thinking.
    Mr. Lungren. What training do you give your analysts? 
Because I am concerned about the quality of analysts. You 
talked about anecdotally and you have given me a classified 
briefing on several instances.
    Admiral Collins. We leverage like crazy at the Department 
of Defense on a lot of things. We train our pilots at 
Pensacola, the Naval Training Station. Wherever we can leverage 
off the United States Navy, the Marine Corps, the Department of 
Defense for this training, that is what we do. A lot of our 
folks get trained through Department of Defense intel structure 
and it pays huge dividends for us.
    Mr. Lungren. Last question, and this is a general question 
but I think it is important for informing the public. Some 
would suggest if they look at your deepwater proposals and look 
about the whole idea of advancing our borders or putting our 
borders further out for national security and homeland defense 
purposes that that should be the job of the Navy and not the 
Coast Guard, and are we creating a second Navy. What would you 
say to the public so they would understand why you believe 
deepwater is not only important for your original mission, but, 
more importantly, for this homeland security mission? And how 
do you make sure you are not duplicating the Navy or getting in 
the Navy's way and they are not getting in your way?
    Admiral Collins. Deepwater is a little bit of a misnomer. 
If you look at the entire system, it is out from port and out 
in. It is all of our helicopters. It is a prime asset for our 
port and coastal surveillance and protection and the like. And 
it is delivering, as I testified before, it is delivering 
network-centric surveillance information to the entire system. 
So it is indispensable to our homeland security work.
    There are also--every deepwater asset is a multi-mission 
asset, so it is doing everything from fisheries enforcement to 
search and rescue to drug interdiction to migrant interdiction 
and the like. And the difference between the Navy and the Coast 
Guard, they are higher end, high-threat platforms with high-end 
weapons systems. You could plot the spectrum of threat and 
higher end, the Navy owns. The lower end, we are predominant. 
And in the middle, there is a slight overlap, which is good for 
international interest.
    We have carefully discussed that relationship and that 
division of labor with the Navy collaboratively for the past 4, 
5, years. We have developed the document that both Vern Clark 
and I have signed, have called the National Fleet Policy 
Statement. And it is a document that pledges our respective 
organizations to plan together our respective fleet so they are 
complementary, nonredundant systems. And that is exactly what 
we have done in planning out our two fleets. They are 
synergistic and complementary and not redundant. We have joint 
teams that determine the requirements and the performance 
dimensions of each system so they are in sync with that 
relationship. It is a powerful relationship.
    Mr. Lungren. Thank you, Admiral. Gentlelady from 
California.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I really only have one question that I want to ask you and 
it comes back from this GAO report that was done in June of 
2004. And it said that the Coast Guard was relying on 
reservists to conduct vessel and facility inspections. And as 
you can imagine, many of the reservists are reaching their 
Active day service limit. And I think that means you need to 
find other replacements to do those inspections.
    So my questions are how are you going to do that? Does the 
current budget you are proposing reflect that? Are you going to 
hire more full duty inspectors? Is the $114 million that you 
have in the budget sufficient to carry out that responsibility?
    Admiral Collins. The use of reservists through 2004 and 
into 2005 was--the best way to describe it was a bridging 
strategy. Through the budget, we got over 500 additional 
billets last year, positions, so that we could ensure 
compliance and oversee and implement the regulation. But it 
takes a while to attract, train, promote or whatever you have 
to do to fill those positions. So use of Reserves was a great 
way to bridge, because the work couldn't be put off, and it was 
a ``now'' type of a thing. We mobilized our Reserve. That is 
what they are there for, to provide for surge capability, and 
they performed incredibly well. They have helped us bridge, and 
well on the way of getting all those things filled out.
    So now we are in the tail end of transitioning from that 
Reserve-dominated force to a total Active Duty force and we are 
doing well. And the money is sufficient to do that. The 
annualization of that 500-plus billet--in other words, we had 
partial funding in 2004 until we brought them all on. The 
annualization of that is in the 2006 budget. I am pleased where 
we are, and I am very appreciative of the support and I think 
we are in good shape.
    Ms. Sanchez. I have one last question and several of the 
gentlemen alluded to it in one way or the other. This is the 
Homeland Security Committee and we care about homeland security 
and we understand that our ports are much of the front line. 
You are the first responders in the sense here, but we are 
cognizant of the fact that many of us who live near ports in 
the State of Washington or California, that you have other 
responsibilities: water safety, drug interdiction, search and 
rescue, et cetera. Do you have resources? Are you really 
cannibalizing--.
    Admiral Collins. It is nice to have another dollar and 
another person. Someone would always say that would be nice to 
have. I think that given the budget is a relative thing, you 
submit it as part of the Department. Competing requirements and 
competing needs, and the President has to put together a 
complicated Federal budget and he has to balance.
    Ms. Sanchez. We understand that, and we balance it here in 
the Congress. I guess the question is, do you feel comfortable 
that the original pieces of what the Coast Guard does and did 
and is supposed to do for us are getting done and not falling 
between the cracks because of this whole new layer of security 
that we are requiring of you?
    Admiral Collins. The answer is yes. I am comfortable. And 
the performance of our Coast Guard men and women has been 
extraordinary, number one. You could look at it several ways. 
You could look at what are the number of boat hours or aircraft 
hours that you apply to these different missions and how do 
they compare to point X in time: What is the performance you 
have achieved in each of these areas? And I would submit if you 
look at mission area by mission area by mission area, our 
mission performance has been extraordinary and it hasn't taken 
a back seat anywhere.
    If you look at our counterdrugs, we shattered previous 
performance records for drug interdiction. Last year, we 
interdicted the highest amount of migrants we interdicted in 
the last 10 years. Our SAR, we have exceeded our performance 
standards for search and rescue. If you look at every 
performance dimension, I think we are answering the mail, and 
men and women doing some extraordinary things.
    Ms. Sanchez. Thank you.
    Mr. Lungren. The gentleman from Washington.
    Mr. Dicks. Thank you, Mr. Chairman.
    Let us go back to deepwater. I serve on the Appropriations 
Committee and I was concerned when the subcommittee, Mr. 
Rogers' subcommittee, cut 466 million out of the budget for 
deepwater. Now, as I understood it, and the Chairman told us in 
our full committee markup, was that there had been certain 
reports that had not been submitted and that that is why they 
were taking this large cut.
    What comments--are we going to get the reports? I assume 
the Chairman is going to get the reports that he wants over the 
time frame that he wants.
    Admiral Collins. This is probably the most frustrating 3 or 
4 months since I have been in Washington, and I have been in 
and out of Washington 15 years. The issue was the 
Appropriations Committee wanted the full new rebaseline 
implementation plan for 2006 and outyears. And that was in the 
2005 appropriations bill; that was the stated requirements 
submitted along with the 2006 request when it came up this 
February. We weren't able to deliver on that direction. We 
couldn't get the consensus within the administration to get the 
information up here. And so we were late on the initial 
submittal. The initial submittal came up. It wasn't seen as 
responsive by the chairman and his staff. And thankfully, at 
the end of last month, I think we have answered the mail. We 
have got the full package of information through the 
administration and into the committee. And my feedback is they 
are basically pleased with the package we have given them and 
we will have meetings with them to follow up. So the 
information is there.
    Mr. Dicks. Now GAO has also stated that deepwater has 
serious management challenges that have to be addressed; 
contractual deadlines are going to be met if costs are to 
remain within the budget. What do you have to say about that?
    Admiral Collins. I say this is the ongoing partnership with 
GAO. They have been our--we have been thrilled--they have been 
part of the deepwater program for the last 7 years. In the 
formation of the strategy, they are always poking a critical 
finger at it, which we have welcomed and we have taken every 
bit of advice from them and we have tweaked and we have molded 
and improved the structure. There are 11 areas that they 
pointed out that have to be attended to. We are well on our way 
of attending to them. A good number of them have been checked 
off.
    Mr. Dicks. Let me give you a couple of these for the 
record. The GAO reported last year that the primary contract 
management teams are understaffed, insufficiently trained and 
lack decision-making authority. Has that been reversed?
    Admiral Collins. In large measure, it has. And we have 
worked with the project staff, brought both contracted and 
ours; enhanced the training, enhanced the partnering construct, 
increased the training. I would be glad to give you a blow-by-
blow point/counterpoint with here are the 11 GAO issues and 
this is where we are in meeting all of those. I would be glad 
to provide that to you and for the record.
    Mr. Dicks. Mr. Chairman, I think this would be a good 
subject for another hearing, because this is a big part of 
our--.
    Mr. Lungren. Could we request it in writing and take a look 
at it?
    Admiral Collins. I would be glad to provide this for the 
record and take a look at it.
    [The information follows:]

                        Inserted for the Record

  UPDATE AS OF: 10 May 2005, GAO RECOMMENDATIONS COAST GUARD (CG) INTEGRATED DEEPWATER SYSTEM (IDS) ACQUISITION
                                     SCHEDULE AND CONTRACT MANAGEMENT AUDITS
 Note: Items in BOLD reflect brief description of Coast Guard's comment to GAO's response to action taken. Coast
 Guard IDS Program has also provided five briefings, four update letters and responded to frequent requests for
   conference calls and deliverables in the past year. The IDS Program embraces GAO's recommendations and will
       continue to communication with them and provide periodic updates to the status of recommendations.
----------------------------------------------------------------------------------------------------------------
          RECOMMENDATION                        ACTION TAKEN                             CG COMMENT
----------------------------------------------------------------------------------------------------------------
ACQUISITION SCHEDULE AUDIT:        The Deepwater program updated its       CG will continue to update its
 Update the original 2002           Integrated Master Schedule (IMS) in     Integrated Master Schedule (IMS)
 Deepwater acquisition schedule     time to support the 2006 budget         every 6 months and provide GAO
 in time to support the fiscal      submission and will continue to do so   additional clarity regarding its use
 year 2006 Deepwater budget         every 6 months.                         and capability as needed.
 submission to DHS and Congress
 and at least once a year
 thereafter to support each
 budget submission.
----------------------------------------------------------------------------------------------------------------
CONTRACT MANAGEMENT AUDIT:         Training programs and processes         All IPTs are now chartered and an
 Increase Integrated Product Team   improved and fully automated. Metrics   improvement to 80% of members have
 (IPT) effectiveness by training    updated on monthly basis. IPT           received IPPD entry level training;
 IPTs in a timely manner,           Measures of Success (MOS) have          CG will continue to manage these
 chartering sub-IPTs, and making    improved and charters for IPTs          processes in a timely manner, define
 improvements in electronic         updated. Domain Management Teams        IPT team roles and responsibilities
 information-sharing system.        (DMT) were established to manage        and improve IPT effectiveness and
                                    product IPTs, as a result of            information systems.
                                    continued emphasis on improvement.
----------------------------------------------------------------------------------------------------------------
Require notification to the Coast  Integrated Coast Guard Systems (ICGS)   Coast Guard will ensure compliance.
 Guard, including ``buy''           will notify the Coast Guard one week
 alternatives considered, for       prior to implementation of a decision
 ``make'' decisions on              if the amount is greater than $10M,
 subcontracts valued at over $5M.   which comports with the respective
                                    Federal Acquisition Regulation (FAR).
                                    Policy was adopted in July 2004.
----------------------------------------------------------------------------------------------------------------
Human Capital Plan (HCP) policy    The HCP provides the overarching        Coast Guard is taking steps as
 implementation to ensure           guidance and the implementation of a    indicated and will strive to achieve
 adequate staffing and              Deepwater Human Capital Solutions       HCP and GAO objectives, while
 proactively address personnel      Database provides for the execution.    improving results.
 turnover.                          Workforce planning and coordination
                                    is addressed in the HCP. The program
                                    is adhering to requirements to ensure
                                    that the workforce is aligned with
                                    the program needs at every phase of
                                    the acquisition. These defined
                                    processes focus on key components of
                                    workforce effectiveness including
                                    training, leadership, knowledge
                                    management, recruiting, retention and
                                    culture development. Turnover risk
                                    mitigation steps taken, additional
                                    billets assigned and certified
                                    program management support contracted
                                    to bridge gaps.
----------------------------------------------------------------------------------------------------------------
Timely communication of asset      Transition team pursuing aggressive     Coast Guard will continue to take
 transition information to field    outreach plan that continues to         steps as indicated to achieve
 units.                             expand with program execution. Over     objectives and improve results,
                                    100 field visits have been completed    while closely monitoring transition
                                    since July 2004. Maintenance and        requirements for critical internal
                                    support systems, databases and          communications.
                                    documentation have improved based on
                                    actual application and user feedback.
                                    Additional training sessions, hot
                                    washes and conferences conducted to
                                    ensure continued support and that
                                    operational commanders remain
                                    knowledgeable. Field personnel also
                                    serve on IPTs and as liaison for
                                    related training and maintenance
                                    activities. ICGS has placed site
                                    representatives at key field
                                    locations in anticipation of asset
                                    deployment. Internal outreach plan
                                    implemented by Deepwater
                                    Communications Management Team. Input
                                    and feedback obtained, Survey
                                    Implementation Plan developed, and
                                    Survey System executed.
----------------------------------------------------------------------------------------------------------------
Development and adherence to       Coast Guard has incorporated            CG will continue to use measurable
 measurable award fee criteria.     measurable award fee criteria and       award fee criteria.
                                    will use this criteria in the future.
----------------------------------------------------------------------------------------------------------------
Consideration of award fee         Coast Guard has standardized the        CG will continue to consider COTR
 assessment input from the          method to compile Performance Monitor   input through a standardized
 Contracting Officer Technical      input and subsequent revisions.         methodology and ensure performance
 Representative (COTR).                                                     monitors' input is included as part
                                                                            of the award fee determination.
----------------------------------------------------------------------------------------------------------------
ICGS accountability for improved   Award fee criteria have been revised    CG will continue to evaluate ICGS
 IPT effectiveness included in      to incorporate specific IPT metrics     accountability for improved IPT
 future award fee determinations.   during the current award fee            effectiveness.
                                    evaluation, including Integrated
                                    Product and Process Development
                                    (IPPD) administration, management
                                    commitment, collaboration, and IPPD
                                    training.
----------------------------------------------------------------------------------------------------------------
Develop a comprehensive plan to    The Coast Guard and ICGS agree with     CG will continue to incorporate an
 evaluate ICGS accountability for   the emphasis on competition as a        assessment of the steps the system
 ensuring out-year competition      method of achieving cost control.       integrator is taking to foster
 among second-tier suppliers.       Prices originally contained in          competition at the major
                                    Section B of the contract represent     subcontractor level.
                                    fair and reasonable pricing obtained
                                    as a result of competition. In Award
                                    Term evaluations, the Coast Guard
                                    will specifically examine ICGS'
                                    ability to control cost throughout
                                    the evaluation period by assessing
                                    the degree to which ICGS fosters
                                    competition at the major subcontract
                                    level; ICGS' project management
                                    structure and processes to control
                                    costs, market surveys, or similar
                                    assets and major subsystems.
----------------------------------------------------------------------------------------------------------------
Establish a time frame, based on   The program has a comprehensive         CG will continue to execute and
 the current asset delivery         framework and methodologies for         improve its comprehensive framework
 schedule, for measuring the        measuring performance. The program      and methodologies for measuring
 contractor's performance toward    uses the Balanced Scorecard (BSC)       performance as assets are delivered.
 improving Operational              framework and developed a ``Strategy    The Integrated Master Schedule (IMS)
 Effectiveness with the             Map'', an industry best-practice, in    has been updated starting with the
 appropriate degree of fidelity.    order to develop program objective      FY06 budget request and will be
                                    and measures that not only support      updated every 6 months based on
                                    the BSC perspectives but also           GAO's recommendation to update the
                                    identify linkages to the Department     schedule annually in its audit
                                    of Homeland Security Goals, USCG        report, ``Acquisition Schedule
                                    Programs and Deepwater goals. The       Update Needed''.
                                    Earned Value Management System (EVMS)
                                    compares actual cost and schedule
                                    results with planned cost and
                                    schedule using an enterprise-wide
                                    EVMS. The Deepwater Performance
                                    Measurement System (DPMS) was
                                    implemented as a web-based tool for
                                    every member of the program to view
                                    overall program status and current
                                    metrics at any given time. The
                                    Deepwater program, with its defined
                                    performance standards and performance-
                                    measurement plan determines
                                    operational effectiveness, total
                                    ownership cost, and customer
                                    satisfaction.
----------------------------------------------------------------------------------------------------------------
Refine Total Ownership Cost (TOC)  The program established a TOC baseline  CG provided explanation to GAO. GAO
 baseline that compares the IDS     for the entire program at $78.0B in     was given a copy of the MNS by DHS
 acquisition approach to the cost   FY02 dollars, which is lower than the   and has a copy of the Implementation
 of a traditional acquisition.      traditional business as usual           Plan. CG will continue to work with
                                    acquisition approach, projected at      GAO to provide further clarity as
                                    $83.76B in FY02 dollars, by the         the program progresses.
                                    Logistics Management Institute (LMI).
                                    The TOC baseline has been refined to
                                    enable comparison of the IDS
                                    acquisition approach to the cost of
                                    traditional acquisitions.
----------------------------------------------------------------------------------------------------------------
Establish criteria for adjusting   The Program adjusts the contract        CG provided explanation to GAO and
 the TOC baseline and ensure that   baseline based on approved Program      took action to establish criteria
 the reasons for such changes are   Decision Memorandums from the Agency    for adjusting the TOC baseline. CG
 documented.                        Acquisition Executive (AAE). The        will continue to work with GAO to
                                    Performance Measurement Team            provide further clarity as the
                                    established a database system that      program progresses.
                                    tracks the impact of contract changes
                                    to the TOC of the program and changes
                                    approved by the AAE.
----------------------------------------------------------------------------------------------------------------


    Mr. Dicks. In addition, the GAO stated that the Coast Guard 
did not hold the system integrator accountable for its 
performance and the Coast Guard has not developed the 
comprehensive schedule to measure progress. According to GAO 
testimony in April 2005, the Coast Guard has had mixed results 
in addressing the management challenges associated with 
deepwater, specifically about holding the system integrator 
accountable. Is that being done?
    Admiral Collins. Yes, sir. And we have answered the mail on 
the master schedule and it has already been delivered to GAO 
and it meets their requirements. A lot of this stuff we have 
already marched through and answered. And we would be glad to 
give you a blow-by-blow.
    Mr. Dicks. I assume that a $466 million cut in your 
deepwater program would be devastating. It would require 
complete restructuring?
    Admiral Collins. That is obviously separate from the GAO 
report, related but separate. Absolutely, sir. If we are not 
able to reverse this 466, it would absolutely destroy the 
current acquisition strategy. We would have to totally 
restructure the program and it would stretch it out forever. We 
would go back to a replacement in kind, one-for-one replacement 
approach, which is absolutely the wrong approach.
    This systems approach we have is truly, I think, ground-
breaking in terms of acquisition strategy. It is the right 
approach. It allows the necessary tradeoffs between the 
component parts and the two basic metrics for this whole system 
of systems, gives us the total performance of the overall 
system at the lowest total cost of ownership. That is good 
stewardship and a good acquisition strategy. I would hate for 
that perspective alone to reverse this. And if we don't turn 
this around, it will implode.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Lungren. I thank the gentleman. And thank you, Admiral 
Collins, for your valuable testimony. The members of the 
committee may have some additional questions for you, sir, and 
we will ask you to respond to those in writing in addition to 
what we just talked about with the gentleman from Washington.
    The hearing record will be open for 10 days and the 
committee stands adjourned.
    [Whereupon, at 3:50 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              --
--------


                   Questions Submitted For the Record

    Responses to the following questions have not been received.
    1. As required by the Coast Guard and Maritime Transportation Act 
of 2004 (P.L. 108-293), the Coast Guard recently released a report on 
its current interagency operational centers and its plans to create up 
to 40 additional centers in the future. The report did not address 
whether future centers will be solely Coast Guard centers or if they 
will be run and staffed by multiple agencies and serve multiple 
purposes. An April 2005 GAO report has shown that centers constructed 
on the interagency model have improved the effectiveness of 
coordinating operations and information sharing.
        <bullet> When will you provide the Homeland Security Committee 
        with a copy of this report?
        <bullet> What plans, if any does the Coast Guard have to create 
        additional operational centers that are interagency in nature, 
        as opposed to centers constructed on the single-agency, single-
        purpose model?
        <bullet> When will these centers be operational?
        <bullet> Where will the Coast Guard centers be located?

    2. I understand that the MTSA was an important first step in 
improving our port security.
        <bullet> Admiral Collins--Could you tell me what further 
        actions are needed beyond meeting MTSA requirements to improve 
        security at our nation's ports?

    3. Clearly, Deepwater is a crucial program since the Coast Guard 
needs to replace its outdated cutters, aircraft used to patrol our 
ports and the communications systems used on these assets. Many of us 
have supported accelerating the program to ensure that the men and 
women of the Coast Guard have the equipment they need to protect our 
ports. The GAO issued a report last year that stated that the Deepwater 
program is plagued with management problems. For example, the report 
stated that the Coast Guard has not held the contractor accountable, 
that the Deepwater program is understaffed, and that there is no 
acquisition schedule in order to measure progress. The GAO testified in 
April 2005, that the Coast Guard has taken some but NOT all of the GAO 
recommended steps.
        <bullet> Admiral, when will the Coast Guard fully implement the 
        GAO recommendations for this critical program?

    4. Currently helicopters and small airplanes are performing touch 
and go's and aerobatics on the bridge to Terminal Island at the Port of 
Los Angeles--not only do these ``tricks'' contribute to noise issues, 
but more importantly, there appears to be a strong margin for error 
where these touch and go's are concerned. It is my understanding that 
the FAA currently controls the air space over the Port and that the 
USCG has no jurisdiction over this air space.
        <bullet> As we are moving towards collaboration and cooperation 
        in this post 9-11 environment, and working to secure our ports 
        and borders, what types of protocol are in place and has there 
        been communication with the FAA on this issue?
        <bullet> If not, is there a way that Congress may help?

    5. The Coast Guard and TSA are responsible for developing the 
Transportation Worker Identification Card or TWIC. The MTSA required 
the development of the TWIC card. The program is way behind schedule. 
The delay is a problem for transportation security, but it is an 
especially big security challenge at our ports.
        <bullet> When will DHS begin issuing TWIC cards and what is the 
        revised schedule for completion of the initial issuance?

                        Inserted for the Record

           Oversight and Management of the U.S. Coast Guard's

                      Integrated Deepwater System

    Rear Adm. Patrick M. Stillman, USCG, Program Executive Officer, 
     Integrated Deepwater System, U.S. Coast Guard Headquearters, 
                           Washington, D.C.,

                             24 April 2005

Introduction
    During congressional testimony in March and April 2005, Margaret 
Wrightson, Director of Homeland Security and Justice for the Government 
Accountability Office (GAO), discussed the constructive nature of GAO's 
relationship with the Integrated Deepwater System (IDS) Program. This 
testimony incorporated GAO's ongoing analysis of the Coast Guard, and 
actions taken on GAO recommendations from reports issued in 2004 on the 
Integrated Deepwater System (IDS).
    GAO's 2004 recommendations focused on four main areas of 
improvement, the Deepwater acquisition schedule, program management, 
contractor accountability, and cost controls. In conjunction with these 
GAO recommendations, the Program has made significant advancements to 
strengthen business operations and managerial practices--leading to 
noteworthy improvements in the acquisition.
    As Ms. Wrightson stated, ``I compliment the Coast Guard on their 
very nimble approach to responding to GAO's findings and 
recommendations even while we're conducting our work. . . . When GAO 
goes out and finds a problem, before I can get the report written, the 
Coast Guard is actively engaging with us in a way to fix it.''

Deepwater Acquisition Schedule
    Deepwater's acquisition schedule, or Integrated Management System 
(IMS), is intended to enable the Coast Guard and its industry partner, 
Integrated Coast Guard Systems (ICGS), to track the cost, schedule, and 
performance of every contract in the Deepwater Program. GAO cited 
concerns in 2004 about the IMS's reliability, and further stated a need 
to update the schedule annually.
    At that time, ICGS had initiated a third-party independent review 
of the IMS that during the ensuing months overhauled the entire system. 
Additionally, the Coast Guard will have ICGS update the implementation 
plan twice each year, which exceeds the GAO recommendation for annual 
updates.
    This work resulted in a greatly enhanced acquisition schedule that 
allows monitoring of contractual successes and areas in need of 
attention. As Ms. Wrightson testified, this IMS now provides the Coast 
Guard and ICGS with ``a much better visibility into where they are with 
each particular part of the acquisition.''

Program Management
    Deepwater Program Management improvements began with the 
restructuring of IDS Integrated Product Teams (IPTs). Recognizing the 
notable success of IPTs in improving cost, schedule, and performance in 
industry and certain government product--development programs, the 
Coast Guard and ICGS instituted IPTs at the program's inception. GAO 
offered guidance that proved very helpful in enabling the IDS-ICGS team 
to resource, train, and empower Deepwater IPTs to meet their 
responsibilities more effectively.
    IPT Measures of Success, which track training, member empowerment, 
application of project management processes, and communication and 
collaboration both within the IPT and with the IPT customer, have 
improved 69 percent since ICGS introduced them in August 2003. 
Deepwater also upgraded a computer-based information-sharing system to 
facilitate better document management, program oversight, and timely 
exchanges of information.
    GAO also identified aspects of Deepwater human capital management 
as a risk to the program. In response, Deepwater helped stabilize 
turnover rates by converting certain military positions (subject to 
normal rotations) to civilian billets. Additionally, the Coast Guard 
sought to retain institutional knowledge and insulate the program 
against inevitable personnel changes by hiring experienced program 
managers as support contractors and better preparing military officers 
with advanced training before they report to the program. Human capital 
management remains a long term challenge.
    GAO faulted the Coast Guard and ICGS a year ago for not 
communicating more effectively to the field about the status of the 
program and the assets that fleet operators would be receiving. Team 
Deepwater consequently conducted more than 100 outreach visits to key 
``Operations and Support'' units since March 2004, invited Coast Guard 
field personnel to serve on Integrated Product Teams and as local 
contacts for training and maintenance issues, and assigned ICGS site 
representatives at key field locations.
    The Deepwater team also increased the quality and quantity of 
communication products targeting the Coast Guard's internal audience. 
Improved documentation now allows field operators to better understand 
the equipment they have or will receive, and enhanced maintenance 
system databases facilitate faster repairs when necessary. In the 
Program Executive Office, the Deepwater Communications Team surveyed 
the Coast Guard internal audience and established benchmarking data to 
track information-sharing effectiveness to guide its efforts to ensure 
that Coast Guard information needs outside of Headquarters are met 
appropriately.

Contractor Accountability
    The Program's main source of contractor performance is an 
increasingly comprehensive ``Strategy Map'' (also an industry best 
practice) that identifies program objectives, measures, and 
accomplishments. The Strategy Map links the Department of Homeland 
Security goals to specific I DS goals. This strategy map relies upon 
several assessments of contractor accountability:
    <bullet> Earned Value Management compares actual contractor cost 
and schedule to projected amounts.
    <bullet> Integrated Product Team (IPT) Performance evaluates the 
effectiveness of joint Coast Guard/contractor development efforts.
    <bullet> Risk Mitigation identifies factors threatening cost, 
schedule, and performance.
    <bullet> Contract Deliverables provide insight into timely delivery 
of key contractor outputs.
    <bullet> Technical Performance Measures indicate whether actual 
technical specifics of assets/system meet the projected technical 
specifications.
    <bullet> Customer Satisfaction assesses the Coast Guard's 
impression of contractor performance in delivering the system.
    <bullet> Operational Test & Evaluation demonstrates how the 
delivered system performs under actual operating conditions.
    <bullet> Operational Performance Measures reveal actual year-end 
performance results and modeled performance projections using the Coast 
Guard's model.
    <bullet> Readiness Measures link to the Coast Guard Readiness 
Measurement System to capture information deepwater asset availability, 
casualties, mission capabilities, and human capital status.
    The Coast Guard also conducts formal, periodic assessments of ICGS 
intended to both incentivize ICGS to improve program execution with 
potential award fees and discourage low performance by establishing a 
body of records in preparation for the Coast Guard's decision whether 
or not ICGS has earned a subsequent award term. In accordance with GAO 
recommendations, the Coast Guard has refined the process through which 
program managers provide assessments, and increased the objectivity of 
the criteria used to assess ICGS performance.
    GAO also focused on Deepwater Total Ownership Cost measurement as a 
means of ensuring contractor accountability. The Coast Guard 
understands that Total Ownership Costs (TOC) is a key performance 
factor. We have developed criteria for managing the TOC baseline to 
ensure that reasons for changes are well justified and documented. Any 
changes to Deepwater's baseline are accompanied by a TOC analysis. In 
addition, the Coast Guard continually examines innovative ways to 
reduce Deepwater TOC.

Cost Control through Competition
    The Deepwater contract was competed over several years, and the 
Coast Guard analyzed multiple industry solutions before selecting ICGS. 
GAO, among other independent parties, previously endorsed the results 
of that competition. Additionally, Lockheed Martin and Northrop 
Grumman's respective procurement systems are validated by Department of 
Defense audit agencies on a periodic basis.
    However, the Deepwater Program spans more than two decades and 
represents an extraordinarily wide scope composed of a multitude of 
subsystems. GAD seeks to ensure that competition within the IDS did not 
end with the selection of ICGS, and the Coast Guard has bolstered its 
assessment of ICGS subcontractor competition. More specifically, the 
Coast Guard examines ICGS ability to control cost during periodic 
award-term evaluations. It will base future IDS award terms, in part, 
on the degree to which ICGS makes competitive lower-tier awards. A 
third party independent assessment of competition employment by ICGS 
and it's prime subcontractors is ongoing.
    ICGS has agreed to notify the Coast Guard prior to deviating from 
the accepted contract proposal if it decides to execute work in-house 
above $10 million that was proposed to be subcontracted by a company 
other than the ICGS prime contractor.

Conclusion
    As evidenced by these significant improvements in the last year, 
the Coast Guard and ICGS have embraced the GAD's observations and 
continue to reinforce the Deepwater Program's foundation and execution 
as it matures. Throughout that time, the Deepwater Team has maintained 
a working dialogue with the GAD, first by proactively issuing periodic 
update letters throughout the year, and recently hosting a series of 
meetings and providing written responses to significant data requests 
as the GAD prepares for testimony in 2005. As Ms. Wrightson testified 
to Congress in April, GAD is ``working with the Coast Guard to put the 
internal controls and other management that we asked for into place. 
And once that's done, one will still need to monitor that program 
because of its complexities.''
    The Deepwater Program, a performance-based acquisition that unites 
air, surface, logistics, and C4ISR domains, is an unprecedented 
endeavor. Deepwater's mission, to properly equip the Coast Guard 
charged with preserving our maritime security and safety at an 
affordable cost to the American taxpayer, mandates continuous 
introspective improvements as well as external oversight.

                                 <all>

</pre></body></html>
